<html>
<title> - DROUGHT, FLOODING AND REFUGEES: ADDRESSING THE IMPACTS OF CLIMATE CHANGE IN THE WORLD'S MOST VULNERABLE NATIONS</title>
<body><pre>[Senate Hearing 111-499]
[From the U.S. Government Publishing Office]



                                                        S. Hrg. 111-499
 
   DROUGHT, FLOODING AND REFUGEES: ADDRESSING THE IMPACTS OF CLIMATE 
             CHANGE IN THE WORLD'S MOST VULNERABLE NATIONS

=======================================================================


                                HEARING

                               BEFORE THE

                     SUBCOMMITTEE ON INTERNATIONAL 
                        DEVELOPMENT AND FOREIGN
                   ASSISTANCE, ECONOMIC AFFAIRS, AND
                 INTERNATIONAL ENVIRONMENTAL PROTECTION

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                            OCTOBER 15, 2009

                               __________

       Printed for the use of the Committee on Foreign Relations


                   Available via the World Wide Web: 
               http://www.access.gpo.gov/congress/senate



                  U.S. GOVERNMENT PRINTING OFFICE
56-665                    WASHINGTON : 2009
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                COMMITTEE ON FOREIGN RELATIONS         

             JOHN F. KERRY, Massachusetts, Chairman        
CHRISTOPHER J. DODD, Connecticut     RICHARD G. LUGAR, Indiana
RUSSELL D. FEINGOLD, Wisconsin       Republican Leader designee
BARBARA BOXER, California            BOB CORKER, Tennessee
ROBERT MENENDEZ, New Jersey          JOHNNY ISAKSON, Georgia
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
ROBERT P. CASEY, Jr., Pennsylvania   JIM DeMINT, South Carolina
JIM WEBB, Virginia                   JOHN BARRASSO, Wyoming
JEANNE SHAHEEN, New Hampshire        ROGER F. WICKER, Mississippi
EDWARD E. KAUFMAN, Delaware
KIRSTEN E. GILLIBRAND, New York
                  David McKean, Staff Director        
        Kenneth A. Myers, Jr., Republican Staff Director        

                         ------------          

           SUBCOMMITTEE ON INTERNATIONAL DEVELOPMENT        
           AND FOREIGN ASSISTANCE, ECONOMIC AFFAIRS,        
           AND INTERNATIONAL ENVIRONMENTAL PROTECTION        

             ROBERT MENENDEZ, New Jersey, Chairman        

BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         ROGER F. WICKER, Mississippi
ROBERT P. CASEY, Jr., Pennsylvania   JIM DeMINT, South Carolina
JEANNE SHAHEEN, New Hampshire        Republican Leader designee
KIRSTEN E. GILLIBRAND, New York

                              (ii)        




                            C O N T E N T S

                              ----------                              
                                                                   Page

Ball, Rev. Jim, Ph.D., senior director, Climate Campaign, 
  Evangelical Environmental Network, Washington, DC..............     4

    Prepared statement...........................................     6


Corker, Hon. Bob, U.S. Senator from Tennessee....................     3


Green, Dr. Kenneth P., resident scholar, American Enterprise 
  Institute, Washington, DC......................................    23

    Prepared statement...........................................    25


Menendez, Hon. Robert, U.S. Senator from New Jersey..............     1


O'Driscoll, Peter, executive director, Actionaid USA, Washington, 
  DC.............................................................    27

    Prepared statement...........................................    30


Wald, General Charles F., (USAF, Ret.), former Deputy Commander 
  of United States European Command; director and senior advisor, 
  Aerospace and Defense Industry, Deloitte; Washington, DC.......    37

    Prepared statement...........................................    39


Waskow, David, Climate Change Program Director, Oxfam America, 
  Washington, DC.................................................    15

    Prepared statement...........................................    17

                                 (iii)




   DROUGHT, FLOODING AND REFUGEES: ADDRESSING THE IMPACTS OF CLIMATE 
             CHANGE IN THE WORLD'S MOST VULNERABLE NATIONS

                              ----------                              


                       THURSDAY, OCTOBER 15, 2009

        U.S. Senate, Subcommittee on International 
            Development and Foreign Assistance, Economic 
            Affairs, and International Environmental 
            Protection, Committee on Foreign Relations
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 10:00 a.m., in 
Room SD-419 Dirksen Senate Office Building, Hon. Robert 
Menendez, Chairman of the Subcommittee, presiding.
    Present: Senators Menendez [presiding], Cardin, Shaheen, 
Corker, and Inhofe.

          OPENING STATEMENT OF HON. ROBERT MENENDEZ, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Menendez. Good morning. This hearing now comes to 
order. Let me thank my colleagues who are here, particularly 
Senator Corker, who is the ranking Republican on the committee, 
and for his help in making today's hearing possible.
    This is a hearing that has literally been in the works for 
almost a year, but it seemed like every time we were ready to 
pull the trigger, one thing or another got in the way. So I 
want to thank Chairman Kerry and Senator Corker for their help 
in finally putting this hearing together.
    Senator Menendez. Before I begin, I want to say that I was 
amazed to see yesterday that in the context of climate change 
negotiations, Saudi Arabia is asking to be compensated for the 
resulting decrease in oil demand. Truly shocking that a country 
that as the head of OPEC, an organization designed to 
artificially raise the price of oil, would actually ask for 
compensation for reduced demand for that product. So just to be 
absolutely clear, this hearing is not about that. [Laughter.]
    Senator Menendez. This hearing is about helping vulnerable 
developing nations adapt to the worst effects of climate 
change, not helping oil-wealthy nations get a windfall.
    Both the House climate bill and the Kerry-Boxer bill have 
funds designed to provide resources for nations who are most 
vulnerable to climate impacts. Such a fund is important for 
many reasons. The most obvious is that it is simply the right 
thing to do. Developed nations have created a planetary problem 
and we have a duty to help those who are being impacted. But it 
is also essential to our national security, and it is essential 
if we expect to achieve 
an international climate treaty. Unfortunately, it is an issue 
that 
I do not think has received enough attention in the United 
States Senate.
    To help us today discuss this issue, we have a whole host 
of very significant witnesses. Let me in my comments reference 
them.
    Reverend Jim Ball is an evangelical Christian who is part 
of a coalition of faith leaders committed to this issue. He 
will describe the human suffering from climate change and how 
unjust it is for nations that have not contributed to the 
problem to bear so much of the hardship.
    Peter O'Driscoll from ActionAid USA will also be exploring 
the dire human impacts we can expect from climate change and 
will be telling stories of real people's lives. It is easy to 
get caught up in the numbers. So I hope Mr. O'Driscoll can help 
us remain focused on the human scale of this problem.
    As dire and as emotional as this issue can be, having a 
strong fund for international climate change adaptation is 
fundamentally important because it is in the national interest.
    A couple of years ago, the CNA Corporation published a 
report cataloging how climate change is an important national 
security issue. General Wald, who is also on CNA's Military 
Advisory Board, will testify about how unchecked climate change 
will lead to flooding, drought, and food security concerns. 
This could lead to tens of millions of climate refugees that 
will be competing for scarce resources. Which, in turn, this 
could lead to unstable governments, conflict, increased 
humanitarian missions, and increased migration.
    The example that most commentators point to show the kinds 
of impact climate change can have is Darfur. Severe drought led 
to the loss of grazing and farmland. This led to nomadic 
herders migrating in search of water. This migration led to 
conflict with the farming tribes occupying those lands. Climate 
change means that droughts like this will happen more 
frequently, and unless funding is found to plan for these 
changes in advance, it is inevitable we will also see increased 
conflict.
    Whether we like it or not, the world is becoming a smaller 
place, and threat multipliers happening anywhere in the world 
will likely have impacts here. Having a strong adaptation fund 
to manage climate change impacts could, therefore, help us 
avoid much more serious security engagements down the road, and 
that is certainly in the national interest.
    Another reason why a strong adaptation fund is in our 
national interest is because it will greatly strengthen our 
negotiating position for an international climate treaty. David 
Waskow from Oxfam America will be testifying about how such a 
fund will be an important aspect of climate negotiations.
    We can all agree that this is a planetary problem that will 
need almost all nations to come together and commit to solving 
this issue. The domestic legislation working its way through 
Congress is essential to reduce worldwide emissions to the 
levels we need, but it is also a powerful statement to the rest 
of the world that we are ready to make a strong commitment and 
willing to work with other nations who are also willing to be 
bold in their actions. For many nations, a strong commitment to 
international adaptation is an essential piece of the puzzle.
    So if we think preventing billions of dollars worth of 
damage to our own shorelines is in the national interest, then 
we will need an international adaptation fund to accomplish 
that. Or if we think preventing drought in our nation's bread 
basket is in the national interest, then we will need an 
international adaptation fund to accomplish that.
    I am very pleased to see that the climate debate is finally 
advancing. I hope this hearing can help the Senate appreciate 
just how important it is to our own national security and 
economic interests to address the impacts of climate change in 
the world's most vulnerable nations.
    Now let me recognize the distinguished ranking member for 
any comments he may have.

                 STATEMENT OF HON. BOB CORKER, 
                  U.S. SENATOR FROM TENNESSEE

    Senator Corker. Thank you, Mr. Chairman, and I appreciate 
your desire to have this hearing and all that you have done to 
make it possible. I do enjoy working with you and I know we 
have been able to accomplish numbers of things together.
    I want to welcome the panelists. I am typically very short 
on opening comments, and I look forward to the questioning 
after your testimony.
    I do want to say that there is no question that there are 
adaptation issues that need to be dealt with. I know that we 
have funding within existing budgets that do some of that. Some 
of that certainly is not done in the most effective way.
    And in no way to cast judgment at all on the testimony that 
you are going to give today, this is a more broad statement. 
One of the things that has troubled me about climate change 
legislation is, at the end of day, it ends up being all about 
money. The fact is, as Senator Menendez mentioned, Saudi Arabia 
now wanting money for this and that. It seems like that much of 
the climate change legislation that we look at here in 
Washington ends up being all about sending money out to either 
corporations or people that want various special things done 
within their States.
    I want to come back, though, and say there is no question 
that we have adaptation issues to deal with, and there are some 
things that merit taxpayer monies. There are some things that 
do not. I witnessed firsthand in Sudan in Darfur the issues 
relating to the very thing Senator Menendez was referring to.
    Again, I look forward to your testimony. I really do think 
this is going to be enlightening, and I do look forward to 
working with each of you and others to figure out a way to, in 
a more streamlined way, focus on this issue that I think is 
very important to our country.
    So thank you.
    Senator Menendez. Thank you, Senator Corker.
    Senator Shaheen?
    Senator Shaheen. I do not have an opening statement.
    Senator Menendez. Okay.
    So let me formally introduce our panel to the committee. 
Rev. Jim Ball. Since 2000, Rev. Ball has served as Executive 
Director of the Evangelical Environmental Network and, before 
that, was the Climate Change Policy Coordinator for the Union 
of Concerned Scientists. And I am proud to say that Dr. Ball 
received his Ph.D. in theological ethics from Drew University 
in New Jersey and also taught for a number of years at 
Montclair State University. Welcome.
    David Waskow is the Climate Change Program Director at 
Oxfam America. Oxfam America is an international development 
and humanitarian organization that works with communities and 
partner organizations in more than 120 countries, including the 
United States itself, to create lasting solutions to poverty, 
hunger, and injustice. Thank you.
    Dr. Kenneth Green is an environmental scientist by 
training, studied environmental policy for more than 10 years 
at think tanks in California and Canada prior to joining the 
American Enterprise Institute where he is a resident scholar. 
He has authored numerous articles, newspaper columns and book 
chapters on global warming. Welcome.
    Peter O'Driscoll became ActionAid USA's Executive Director 
in May of 2006. ActionAid is an international anti-poverty 
agency working in 50 countries taking the sides of poor people 
to end poverty and injustice together.
    And General Charles F. Wald is the Former Deputy Commander 
of the United States European Command. With more than 35 years 
of service, General Wald was a command pilot with more than 
3,600 flying hours, 430 combat hours, flying missions over 
Vietnam, Cambodia, Laos, Iraq, and Bosnia. He is currently 
Director and Senior Advisor to the Aerospace and Defense 
Industry Practice at Deloitte and a member of the CNA Military 
Advisory Board.
    Thank you all very, very much.
    We will ask you to try to keep your testimony to about 5 
minutes or so. We are going to include your entire statements 
for the record, and this will give us enough time to have some 
good Q&A sessions after that. Let us start with you, Rev. Ball.

  STATEMENT OF REV. JIM BALL, PH.D., SENIOR DIRECTOR, CLIMATE 
 CAMPAIGN, EVANGELICAL ENVIRONMENTAL NETWORK, WASHINGTON, D.C.

    Rev. Ball. Thank you, Chairman Menendez and Ranking Member 
Corker, for having this hearing on international adaptation. I 
am the Reverend Jim Ball with the Evangelical Environmental 
Network, and it is an honor to be here.
    My testimony will offer an evangelical Christian 
perspective on the need for significant funding for 
international adaptation. So, yes, we are talking about money 
here, Senator Corker. The views expressed here are my own. 
However, over 270 senior evangelical Christian leaders like 
Rick Warren who are part of the Evangelical Climate Initiative 
support strong action on international adaptation, as do 89 
percent of evangelicals, according to a recent poll.
    Climate change is a natural disaster intensifier. It makes 
floods fiercer, hurricanes harsher, droughts dryer. The one 
thing the world does not need are more victims of natural 
disasters like the father and his family during the 2005 Niger 
famine found hundreds of miles from the nearest feeding 
station. ``I'm wandering like a madman. I'm afraid we'll all 
starve.''
    The reason such stories should not simply touch us as 
compassionate individuals but rouse us as a country is because 
of the scale of the impacts which have important implications 
for our economic and national security.
    Given that these impacts will fall hardest on the poor in 
poor countries, those who have done the least and yet will 
suffer most, it should not surprise you that the Bible speaks 
to our responsibility to help them. When asked what is the most 
important thing in life, Jesus said it is to love God and love 
our neighbors as ourselves. These two commandments are what the 
church has called The Great Commandments, and from a Christian 
perspective, they are what our lives should be about.
    In Luke's version, an expert asks Jesus a follow-up 
question, and Senators, you should be familiar with follow-up 
questions. Who is my neighbor? This sets up the parable of the 
Good Samaritan about a man who was robbed, beaten, and left for 
dead. A priest and a Levite passed by on the other side. But 
one of the hated Samaritans helps him. By having the Samaritan 
be the one who demonstrated love through his actions, Jesus in 
effect says that everyone is our neighbor, even or especially 
others we hold in contempt.
    Here is the connection to climate change. The priest and 
the Levite were not the ones who robbed the man, just like in 
our time we did not create the poverty of the poor, a situation 
that makes them much more vulnerable to the impacts of climate 
change. But the priest and the Levite did pass by on the other 
side. Righteousness and love are the presence of good acts, not 
simply the absence of bad ones. By not helping the man in the 
ditch, the priest and the Levite made his plight worse and 
failed to love God.
    Today, collectively, we are in fact making the plight of 
the poor worse through our contribution to climate change. And 
knowing their plight and not doing what we can to help to 
overcome it is like passing by on the other side, something no 
morally mature individual or nation can do. We must be Good 
Samaritans.
    Let me provide a few examples of adaptation. Climate-
intensified flooding will impact the ability to grow crops. A 
simple practical solution made from resources readily at hand 
are floating gardens, which have been successfully demonstrated 
in one of the poorest areas of Bangladesh. One of the moms 
helped, named Tara Begum, states, ``This has made a great 
difference to my life. Now I have enough food in the floods, 
and I can give some to help my relatives as well.''
    As for drought, simple rainwater harvesting techniques can 
be highly effective. A widow in a Sri Lankan village, 
Nandawathie, has capitalized on the opportunities provided by 
increased water, by growing and selling vegetables at her 
doorstep. With this additional revenue stream, she applied for 
a loan to install solar power in her house. Nandawathie also 
feels safer not having to fetch water. Her children have less 
diarrhea, and her daughter has more time for school work.
    And now for funding. Many in the religious community have 
called for there to be, in comprehensive legislation, an 
allocation equivalent to $3.5 billion annually, starting in 
2012, which moves rapidly toward $7 billion annually by 2020. 
Unfortunately, the allocation or funding in Waxman-Markey is 
woefully inadequate. Such funding levels must be increased 
significantly to capture the full support of the religious 
community. We have the means. Let us now summon the will.
    Thank you.


    [The prepared statement of Rev. Ball follows:]

  Prepared Statement of The Reverend Jim Ball, Ph.D, Senior Director, 
         Climate Campaign, Evangelical Environmental Network\1\
---------------------------------------------------------------------------

    \1\ The purpose of the Evangelical Environmental Network is ``to 
declare the Lordship of Christ over all creation.'' For more 
information, go to: www.creationcare.org.
---------------------------------------------------------------------------
          a christian perspective on international adaptation
Preamble
    Thank you, Chairman Menendez and Ranking Member Corker, and thank 
you to the subcommittee members, for having this hearing on 
international adaptation, or addressing the impacts of climate change 
in the world's most vulnerable nations. I am the Rev. Jim Ball, Senior 
Director of the Evangelical Environmental Network's Climate Campaign, 
and it is an honor to testify before you today. My testimony will offer 
an evangelical Christian perspective on the need for significant 
funding for international adaptation.
    The views expressed here are my own. However, over 270 senior 
evangelical Christian leaders who are part of the Evangelical Climate 
Initiative have stated that ``as a society and as individuals we must 
also help the poor adapt to the significant harm that global warming 
will cause.'' \2\ In addition, a recent poll by Public Religion 
Research found that 89% of evangelicals support the U.S. helping the 
poor adapt to climate-intensified natural disasters, and 79% support 
helping with food and water shortages caused by climate change.\3\
---------------------------------------------------------------------------
    \2\ See the Evangelical Climate Initiative's statement at http://
christiansandclimate.org.
    \3\ See http://www.faithinpubliclife.org.
---------------------------------------------------------------------------
Introduction
    For many who have cared for the poor in poor countries by 
supporting relief and development organizations in their efforts to 
fight hunger, disease, natural disasters, and poverty, it may be 
disconcerting to discover that the pollution coming out of our vehicles 
and from our factories and power plants will lead to an insidious 
reversal of such efforts due to the impacts of climate change. Most of 
us have grown up thinking of pollution as a local or perhaps regional 
problem, not a global one. How could pollution coming out of cars in 
Chattanooga, for example, help cause hunger in Africa? But when such 
pollution is added to millions of vehicles and smokestacks around the 
world releasing heat-trapping global warming pollution, it results in 
climate change, a natural disaster intensifier. It makes floods 
fiercer, hurricanes harsher, and droughts dryer. The one thing the 
world certainly doesn't need are more victims of natural disasters, 
like the father and his family during the 2005 Niger famine found 
hundreds of miles from the nearest feeding station. ``I'm wandering 
like a madman. I'm afraid we'll all starve.'' \4\ At one of the feeding 
stations, a mother lamented as she watched her young daughter die. ``As 
far as I'm concerned, God did not make us all equal. I mean, look at us 
all here. None of us has enough food.'' \5\
---------------------------------------------------------------------------
    \4\ Hilary Anderson, BBC, ``Niger Children Starving to Death,'' 
July 20, 2005; http://news.bbc. co.uk.
    \5\ Ibid.
---------------------------------------------------------------------------
The scale of the impacts
    The reason such stories should not simply touch us as compassionate 
individuals but rouse us as a country is because of the scale of the 
impacts of climate change. These impacts have important implications 
for our economic and national security and therefore addressing them is 
in our national interest. As Senators Kerry (D-MA) and Graham (R-SC) 
have recently stated in a New York Times op-ed: ``many scientists warn 
that failing to reduce greenhouse gas emissions will lead to global 
instability and poverty that could put our nation at risk.'' \6\ My 
thanks to both of these Senators for their leadership on this issue 
(and for speaking at the launch of the Evangelical Climate Initiative 
in 2006). Here are some of the projected consequences for the poor:
---------------------------------------------------------------------------
    \6\ Sen. John Kerry and Sen. Lindsey Graham, ``Yes We Can (Pass 
Climate Change Legislation),'' New York Times (Oct 10, 2009): http://
www.nytimes.com.


   40-170 million at risk of hunger and malnutrition.\7\
---------------------------------------------------------------------------
    \7\ IPCC, 4th Assessment Report (AR4), Working Group Two (WG2), pp. 
298-300.
---------------------------------------------------------------------------
   1-2 billion people already in a water stressed situation could see 
        a further reduction in water availability.\8\
---------------------------------------------------------------------------
    \8\ Nigel Arnell, ``Climate Change and Water Resources: a Global 
Perspective,'' Ch. 17 in Avoiding Dangerous Climate Change, H.J. 
Schellnhuber, et al. eds., p. 167. Arnell's projections are utilized 
heavily by the IPCC.

   100 million impacted by coastal flooding; millions more by inland 
        flooding.\9\
---------------------------------------------------------------------------
    \9\ IPCC, AR4, WG2, p. 334.

   90-200 million could become more vulnerable to malaria,\10\ 1.4 
        billion could become at increased risk of dengue fever,\11\ and 
        the number of children vulnerable to diarrheal diseases--the 
        number one killer of children--will increase significantly.\12\
---------------------------------------------------------------------------
    \10\ M. van Lieshout et al., ``Climate Change and Malaria: Analysis 
of the SRES Climateand Socio-economic Scenarios,'' Global Environmental 
Change 14 (2004): 87-99; IPCC AR4 WG2 Ch 8, pp. 408-410.
    \11\ S. Hales, et al., ``Potential effect of population and climate 
changes on global distribution of dengue fever: an empirical model,'' 
Lancet, 360 (2002): 830-834. The IPCC utilizes the work of Hales et al. 
See IPCC AR4 WG2 Ch 8, pp. 408, 410.
    \12\ World Health Organization (WHO), A. J. McMichaels, et al., 
eds., Climate Change and Human Health: Risks and Responses (WHO: 
Geneva, 2003): p. 85; http://www.who.int. See also IPCC AR4 WG2 Ch 8, 
p. 401.

   Approximately 20-30% of God's creatures could be committed to 
        extinction by 2050, making climate change the largest single 
        threat to biodiversity.\13\
---------------------------------------------------------------------------
    \13\ IPCC, AR4, WG2 p. 213.

   The creation of 200 million ``climate refugees'' by 2050.\14\
---------------------------------------------------------------------------
    \14\ United Nations Development Program (UNDP), Human Development 
Report Office, Oli Brown, Human Development Report 2007/2008 Fighting 
climate change: Human solidarity in a divided world Human Development 
Report Office, Occasional Paper, Climate change and forced migration: 
Observations, projections and implications (Geneva, 2007): p. 20; 
http://hdr.undp.org. See also National Intelligence Council (NIC) and 
the Office of the Director of National Intelligence, Global Trends 
2025:A Transformed World (Washington, DC, Nov 2008): p. 53; http://
www.dni.gov.

   Billions could be at increased risk for violent conflicts, 
        including in areas sensitive to energy security and the growth 
        of terrorism.\15\
---------------------------------------------------------------------------
    \15\ International Alert, Dan Smith and Janani Vivekananda, A 
Climate of Conflict: The Links Between Climate Change, Peace, and War 
(International Alert, Nov 2007): p. 3; http://www.international-
alert.org. See also CNA, National Security and Climate Change.

Important Christian teachings
    Given that climate impacts will fall hardest on the poor in poor 
countries, those who have done least to cause this problem and yet will 
suffer the most, it should not surprise you that the heart of the moral 
teaching of the Bible speaks to our responsibility to overcome climate 
change.
    In several accounts in the Gospels people ask Jesus what is the 
greatest commandment in the Law. In effect, they were asking: if there 
is one thing our lives should be about, what is it? What is the most 
important thing in life? \16\
---------------------------------------------------------------------------
    \16\ See Mt 22:34-40; Mk 12:28-34; Lk 10:25-37. See also Rom 13:9-
10; Gal 5:13-14; James 2:8; Dt 6:4-5; Lev 19:18.
---------------------------------------------------------------------------
    Jesus quotes Dt 6:4-5, something that observant Jews of his time 
recited in the morning and in the evening: ``Hear, O Israel, the Lord 
our God, the Lord is one. Love the Lord your God with all your heart 
and with all your soul and with all your mind and with all your 
strength'' (Mk 12:29-30). Jesus immediately says, ``And the second is 
like it: `Love your neighbor as yourself,' '' (Mt 22:39, quoting Lev 
19:18). To make things perfectly clear, Jesus adds: ``All the Law and 
the Prophets hang on these two commandments'' (Mt 22:40).\17\
---------------------------------------------------------------------------
    \17\ Here is a nice quotation from Augustine where he states that 
the Great Commandments are an interpretative key to understanding 
Scripture: ``Whoever, then, thinks that he understands the Holy 
Scriptures, or any part of them, but puts such an interpretation upon 
them as does not tend to build up this twofold love of God and our 
neighbour, does not yet understand them as he ought.'' See On Christian 
Doctrine, Book One, Chapter 36.40. You can find it online at: http://
personal2.stthomas.edu.
---------------------------------------------------------------------------
    Why does Jesus add the second commandment to love our neighbors as 
ourselves? He does so because you can't love God unless you love your 
neighbor, because while God loves you, He loves your neighbor, too. 
These two commandments joined together by Jesus are what the Church has 
called The Great Commandments, and from a Christian perspective they 
are what our lives should be all about.
    In the Gospel of Luke's version of Jesus' teaching of the Great 
Commandments, one of the experts in the law asks Jesus a follow up 
question: ``And who is my neighbor?'' This sets up one of the most 
memorable and loved of Jesus' stories, the parable of the Good 
Samaritan.


          A man was going down from Jerusalem to Jericho, when he fell 
        into the hands of robbers. They stripped him of his clothes, 
        beat him and went away, leaving him half dead. A priest 
        happened to be going down the same road, and when he saw the 
        man, he passed by on the other side. So too, a Levite, when he 
        came to the place and saw him, passed by on the other side. But 
        a Samaritan, as he traveled, came where the man was; and when 
        he saw him, he took pity on him. He went to him and bandaged 
        his wounds, pouring on oil and wine. Then he put the man on his 
        own donkey, took him to an inn and took care of him. The next 
        day he took out two silver coins and gave them to the 
        innkeeper. ``Look after him,'' he said, ``and when I return, I 
        will reimburse you for any extra expense you may have.'' (Lk 
        10:30-35).


    During Jesus' time Samaritans were considered by Jews to be 
heretical, traitorous, half-breeds and were regarded with utter 
contempt. By having the Samaritan be the one who demonstrated love by 
his actions, Jesus in effect says that everyone is our neighbor--even 
or especially others we hold in contempt. And furthermore, those of us 
who think of ourselves as religious, as doing the right things to 
appease God and look righteous to others better think again.
    Here is where this parable intersects with climate change.
    The priest and the Levite were not the ones who robbed the man, 
just like in our time we didn't create the poverty of the poor, a 
situation that makes them much more vulnerable to the impacts of 
climate change. But the priest and the Levite did pass by on the other 
side. Righteousness and love are the presence of good and loving acts, 
not simply the absence of bad ones. By not helping the man in the 
ditch, the priest and the Levite made his plight worse and failed to 
love God and be who God created them to be.
    Today, collectively, we are in fact making the plight of the poor 
worse through our contribution to climate change. And knowing their 
plight and not doing what we can to help to overcome climate change is 
like passing by on the other side.
    We may be highly observant of the outward signs of what it means to 
be religious or moral in our community. So, too, I'm sure, were the 
priest and the Levite. That's exactly why Jesus chose them to be 
characters in his parable. But if we don't help the poor who through no 
fault of their own find themselves victims in the ditch of climate 
change's impacts, then we have failed to completely fulfill the Great 
Commandments, to be morally mature persons, and our nation will not 
have lived up to its character as a compassionate country.
    Matthew 25 lets us in on a little secret about the parable of the 
Good Samaritan. While the Good Samaritan is Christ-like in his 
behavior, it is Jesus Himself who is the man in the ditch. For Jesus 
says that whatever we do for ``the least of these'' we do for him (Mt 
25:40).
    In terms of the problem of climate change, right now it is as if 
you are approaching a victim of climate change in the ditch. You are 
just within sight of the person. You don't yet quite know what is going 
on. Is it risky to go over to this person? You can't quite yet tell 
anything about who it is--just that there is a lump in the ditch that 
looks human. Whoever it is could be drunk you think to yourself--maybe 
not a victim at all! But as you venture closer you come to find that it 
is a child, not a man. It is a young girl.
    She is in distress. Is she sick? Weak from hunger? Both? Maybe she 
has an infectious disease. Where are her parents? Who is responsible 
for this young girl? How did she get in this situation? Suddenly you 
notice that someone else is in the ditch with her. It is Jesus, and he 
and the girl need our help.
    When it comes to helping the poor adapt to climate impacts, what is 
true for Christians is also true for others. No morally mature 
individual or nation can pass by on the other side and leave the 
victims in the ditch of global warming's impacts. We must be Good 
Samaritans.
Adaptation in poor countries
    Is it possible to overcome the consequences of climate change 
through adaptation? The short answer is YES. But it is only yes if we 
do two basic things: (1) sufficiently address the causes through 
mitigation, and; (2) making the necessary investments of time and 
treasure.
    If we don't address the causes as we should, then at some point we 
will not be able to adapt to the consequences in a meaningful way. The 
impacts will overwhelm our capacity to adapt. This is especially true 
for the poor in poor countries, who would be the first to face such a 
situation.
    Even if we mitigate or address the causes, could those of us in the 
rich countries invest enough in the adaptation efforts of the poor in 
poor countries so that they had the resources necessary to adapt?
    Of course, the poor have been adapting to such things a floods and 
droughts for years with varying degrees of success. However, in many 
cases such coping strategies have been and will be completely 
overwhelmed by climate change.
    A poor family in a slum in Ghana serves as an example. Their home 
and their furniture were made to withstand a certain amount of 
flooding. The mother explains that ``When the rain starts falling 
abruptly, we turn off the electricity meter in the house. We climb on 
top of our wardrobes and stay awake till morning . . . our tables are 
very high and so also are our wardrobes, they are made in such a way 
that we can climb and sit on top of them.'' Unfortunately, these 
adaptive strategies have reached their limits due to more frequent and 
more intense flooding, leading to a partial break-up of the family. ``I 
have two children, but because of the floods my first child has been 
taken to Kumasi to live with my sister in-law.'' \18\
---------------------------------------------------------------------------
    \18\ International Institute for Environment and Development 
(IIED), Sheridan Bartlett, Climate Change and Urban Children: Impacts 
and Implications for Adaptation in Low- and Middle-income Countries 
(IIED, August 2008); http://www.iied.org.
---------------------------------------------------------------------------
    While what has helped in the past may simply need to be modified 
over time, relying just on past strategies could in fact prove 
dangerous, could become what experts call maladaptive, given that some 
of the impacts of climate change will fall outside of historical 
experience.
    A similar situation occurs in the biblical story of Joseph found in 
the 41st chapter of Genesis, where an unusually severe and prolonged 
drought required a massive response outside of normal practice in order 
to avoid dire consequences. Like so much of what will be needed to 
successfully adapt to climate change, Joseph's story is an example of 
planning for hard times to come.
    Because Joseph accurately predicted the dreams of others, the 
Pharaoh believed Joseph's interpretation of his dreams that there would 
be seven years of plenty followed by seven years of famine, a famine so 
severe that ``the abundance in the land will not be remembered . . . '' 
(v. 31). Then Joseph recommended a plan of action:


          (34) Let Pharaoh appoint commissioners over the land to take 
        a fifth of the harvest of Egypt during the seven years of 
        abundance. (35) They should collect all the food of these good 
        years that are coming and store up the grain under the 
        authority of Pharaoh, to be kept in the cities for food. (36) 
        This food should be held in reserve for the country, to be used 
        during the seven years of famine that will come upon Egypt, so 
        that the country may not be ruined by the famine (vv. 34-36).


    Planning in the present to survive major problems in the future--
this is a vital part of what climate change adaptation is all about.
    Under Joseph's direction and authority the government took steps in 
the present to invest in the future, a time when ``the abundance in the 
land will not be remembered.'' This required a great deal of 
organization, from the appointment of commissioners to the storage of 
grain to its proper distribution when conditions called for it. 
Additional storage facilities probably had to be built, distribution 
centers created, people trained, the populace educated.
    I'm sure there were some doubters. I'm sure a good number didn't 
like a fifth of their grain being taken by the government for some 
future threat they didn't understand or believe in. But I bet they were 
glad when the famine came that they had food to eat because of Joseph's 
leadership.
    Today, in light of climate change, we see Joseph in a new light. He 
is the Patriarch of adaptation; he is adaptation's ``patron Saint,'' if 
you will.
    Before going further, it will be helpful to have a working 
definition of adaptation. According to the Intergovernmental Panel on 
Climate Change or IPCC, adaptation actions are those that ``enhance 
resilience or reduce vulnerability to observed or expected changes in 
climate.'' \19\ This is exactly what Joseph did: he enhanced resilience 
in order to reduce vulnerability from expected changes in climate.
---------------------------------------------------------------------------
    \19\ IPCC, AR4, WG2, Ch 17, p. 720.
---------------------------------------------------------------------------
    There are two complementary and sometimes overlapping ways to 
achieve adaptation, to enhance resilience and reduce vulnerability. One 
is broader, the other more targeted. The first is achieved by realizing 
the poverty-reducing and democracy-increasing dimensions of freedom, 
something as a country that our standard overseas development 
assistance (ODA) should be helping to foster. The second is achieved 
through projects, processes, and mechanisms designed in whole or in 
part to address climate impacts. Both are needed. Neither can be 
neglected. Federal funding for international adaptation in 
comprehensive climate change legislation, which needs to be new and 
additional in comparison to ODA, should go towards addressing the 
additional burdens created by climate impacts. In other words, such 
funding should go towards targeted adaptation based on what the likely 
major impacts of climate change will be in a particular area. Is there 
going to be more flooding? More drought? Higher temperatures? How do we 
prepare?
    Targeted actions to enhance resilience or reduce vulnerability 
could take a variety of forms, including concrete projects like 
switching to more drought-resistant food crops. Just as in the 
Patriarch Joseph's case, this sounds rather straightforward. But when 
you go to apply it in a particular situation it can become quite 
complex. For example, sorghum is more drought-resistant than other 
crops. But it also brings in less revenue. If you switch, how, then, do 
you make up that revenue? Or, instead of simply switching to a crop 
already at hand you create one. The thing is, creating more drought-
resistant crops can take decades. It has taken 30 years to achieve 
drought-tolerant beans for Latin America, for example. And that is the 
norm.\20\ Furthermore, changing to such a drought resistant crop is not 
simply a matter of providing new seeds. Their acceptance by a family or 
community also depends upon such factors as their taste and how they 
can be prepared, storage requirements, and the availability and 
affordability of other inputs like fertilizers.\21\
---------------------------------------------------------------------------
    \20\ International Livestock Research Institute, P. K. Thornton, et 
al., ``The livestock-climate-poverty nexus: A discussion paper on ILRI 
research in relation to climate change,'' Discussion Paper No. 11. 
ILRI: Nairobi, Kenya, (May 2008). p.41; http://www.ilri.org.
    \21\ United Nations Framework Convention on Climate Change 
(UNFCCC), Technical Paper, Investment and financial flows to address 
climate change: an update (UNFCCC, Nov 2008): p. 30; http://unfccc.int.
---------------------------------------------------------------------------
    As anyone who has managed a major project before knows, they are 
usually much more complicated than meets the eye and are just as much 
about process as they are about product. Furthermore, when the project 
means major changes in the way people do things, part of that process 
includes education and persuasion and buy-in of those who need to 
approve and participate in the changes. In many if not most cases, 
adaptation projects will need to involve both the private and the 
public sector. Governments, businesses, non-profits, community groups, 
churches, families, and individuals will have to participate and play 
their respective roles.
Examples of Adaptation
    As briefly mentioned earlier, climate change will increase both the 
frequency and intensity of inland flooding. One consequence will be a 
diminishment of the ability of poor people living on increasingly 
flood-prone lands to grow crops. A simple, practical solution made from 
resources readily at hand is a floating garden. Water hyacinth (a free-
floating perennial aquatic plant) is collected and formed into a raft, 
upon which soil and cow dung is placed. Seeds of suitable crops are 
then planted in the soil.
    Such floating gardens have been successfully demonstrated in one of 
the poorest, most remote and flood-prone areas of Bangladesh, the 
Gaibandha district, located at the confluence of two major rivers, the 
Tista and the Brahmaputra. The local populations live below the 
subsistence level, and out of necessity many fathers leave the area in 
search of work, leaving behind their families.\22\
---------------------------------------------------------------------------
    \22\ United Nations, International Strategy for Disaster Reduction, 
Linking Disaster Risk Reduction and Poverty Reduction: Good Practices 
and Lessons Learned (UNISDR, 2008): 
pp. 2-5; http://www.unisdr.org. See also the website of a non-profit 
relief and development 
organization in Great Britain called Practical Action, http://
practicalaction.org/?id=climate change_floatinggardens.
---------------------------------------------------------------------------
    Now, however, some of the wives and mothers who have been trained 
on how to create and keep floating gardens are planting them to see 
them through the lean times. One such mother is Tara Begum, who was 
able to grow such crops as red onion, pumpkin, and okra. ``This has 
made a great difference to my life. Now I have enough food in the 
floods and I can give some to help my relatives as well.'' \23\
---------------------------------------------------------------------------
    \23\ Practical Action website, http://practicalaction.org/
?id=climatechange_floatinggardens.
---------------------------------------------------------------------------
    Another consequence of flooding is the damage or destruction of 
housing. One successful formula being implemented in Bangladesh, 
utilizing locally available resources, involves creating a two-foot 
high foundation upon which to erect one's home. This simple foundation 
is made of earth with an outer protective layer of cement and stones. 
The walls of the home are constructed of easily replaceable panels made 
of jute (a readily available plant in the area). Water-thirsty plants, 
such as bamboo and banana, are planted around the structure to soak up 
water and retain the soil. As one father said, ``Before, when the rain 
came, we wouldn't sleep. We were terrified. But now at last we can live 
our lives in peace.'' \24\
---------------------------------------------------------------------------
    \24\ Practical Action website, http://practicalaction.org/
?id=flood-resistant_housing.
---------------------------------------------------------------------------
From flooding to drought
    As the old saying goes, necessity is the mother of invention. For 
thousands of years, when people have needed to they have found various 
ways to capture rainwater, called in the literature ``rainwater 
harvesting.'' Because of increased water scarcity brought on by climate 
change, many will need to discover anew how to do it in their local 
area.
    One way to capture rainwater for crops in a time of drought is by 
constructing ridges of soil along the contours of fields so that the 
rainwater doesn't simply run off the hard-baked soils. Before utilizing 
this technique, Tias Sibanda, a local farmer from the Humbane village 
of Gwanda, Zimbabwe, frequently harvested nothing during times of 
drought and would then have to sell some of his livestock to survive.
    But utilizing this rain harvesting technique has made a tremendous 
difference for Tias Sibanda and his family. In the first year he had 
two crops, which he calculates saved him from having to sell 12 goats 
(worth about $320). Tias states: ``I am confident of further 
improvements in the future and, if the drought eases, would soon be 
able to sell some of my maize crop.'' \25\
---------------------------------------------------------------------------
    \25\ Practical Action website, http://practicalaction.org/
?id=climatechange_rainwater.
---------------------------------------------------------------------------
    Another rainwater harvesting technique is to capture rainwater that 
flows off of rooftops by a system of gutters and pipes that channel the 
water into a storage tank. Efforts in Muthukandiya, a drought-stricken 
village in Sri Lanka, serve as an example, not only of effective use of 
this technology, but of how intentional efforts at community 
involvement increased the success rate.
    Previous top-down efforts in Muthukandiya by the government proved 
ineffective. So a relief and development group working in the area, 
Practical Action, called a meeting of the village where they asked 
their views. As a result, this particular rooftop-to-tank storage 
system of rainwater harvesting was chosen and a plan was developed to 
make it a reality. A village committee was set up to run the project. 
Nearly forty families agreed to participate. Two local masons were 
trained in how to construct the 1,300 gallon storage tanks. 
Participating households were trained in how to maintain the system. 
The entire system cost $195 (equal to a month's income for a family), 
but over half of the cost was covered by the community in the form of 
materials and unskilled labor.
    The results? During the driest times participating households have 
nearly twice as much water as non-participating ones--and such water is 
much cleaner, too.
    A widow in the village, Nandawathie, has capitalized on the 
opportunities provided by increased water by growing and selling 
vegetables at her doorstep. With this additional revenue stream she 
applied for a loan to install solar power in her house, and she is 
thinking of building another storage tank to grow more produce. 
Nandawathie also feels safer not having to fetch water. Her children 
have less diarrhea, and her daughter Sandamalee has more time for 
school work.
    The benefits from this project are clear and compelling. However, 
Practical Action reminds us that ``a lot of effort and patience are 
needed to generate the interest, develop the skills, and organize the 
management structures needed to implement sustainable community-based 
projects'' like this one.\26\
---------------------------------------------------------------------------
    \26\ Practical Action website, http://practicalaction.org/
?id=rainwater_case_study
---------------------------------------------------------------------------
    A final rainwater harvesting example involves a community-based 
project in a poor village in the drought-stricken Kitui district of 
eastern Kenya. Such rainwater harvesting projects are desperately 
needed in the country, given that only 4% of its rainwater collection 
potential is being tapped even though it is chronically water-
scarce.\27\ The particular technique utilized for this project was a 
``rock catchment,'' which requires a rock outcrop of sufficient size 
and with impermeable rock. In the area where the rock slopes down a 
wall is built, essentially creating a dam. This particular project 
provided nearly a gallon of clean water within walking distance for 
each village resident during the dry season.\28\
---------------------------------------------------------------------------
    \27\ UN, ISDR, Linking Disaster Risk Reduction and Poverty 
Reduction: Good Practices and Lessons Learned, p. 36.
    \28\ UN, ISDR, Linking Disaster Risk Reduction and Poverty 
Reduction: Good Practices and Lessons Learned, pp. 33-36.
---------------------------------------------------------------------------
    Successive natural disasters can create a downward spiral that 
thwarts the efforts of the poor to try to create a better life for 
themselves, and climate-intensified disasters could make this dynamic 
even worse. I call this ``the downward disaster spiral.'' But recent 
efforts in Malawi, one of the world's poorest, most densely populated 
countries, demonstrate that concerted efforts can thwart this downward 
disaster spiral. Because of successive floods and droughts, the 2005 
harvest was one of the worst ever recorded, declining 29 percent.\29\ 
Given that 85% of the country lives in rural areas and one third of GDP 
comes from agriculture,\30\ such impacts are particularly devastating. 
Over 5 million people faced food shortages. But just as the biblical 
Patriarch Joseph planned for hard times to come, the government of 
Malawi worked with relief and development organizations and development 
financing institutions to help ensure that the population was better 
positioned to withstand the next round of natural disasters. Because 
the resources of many families had been depleted by successive 
calamities, leaving them unable to buy fertilizers and other inputs, 
these items were heavily subsidized and distributed by both government 
and non-government entities in order to raise production. The result 
was an additional 600,000 tons of maize worth at least $100 million 
from an investment of $70 million.\31\ So not only did this effort 
thwart the downward disaster spiral, allowing millions to continue 
creating a better life, it made money for the entire economy in the 
process.
---------------------------------------------------------------------------
    \29\ UNDP, Watkins, Fighting Climate Change, Box 4.4, p. 182.
    \30\ Central Intelligence Agency, The World Fact Book, https://
www.cia.gov.
    \31\ UNDP, Watkins, Fighting Climate Change, Box 4.4, p. 182.
---------------------------------------------------------------------------
    Another example involves the recent efforts in Mozambique, the 
sixth poorest country in the world and one that will be hit hard by 
climate change. Both coastal and inland flooding are constant threats 
with tropical cyclones (hurricanes) roaring in from the Indian Ocean 
and nine major rivers flowing through the country to the ocean. Heavy 
rains in 1999 had swollen the rivers and in February and March of 2000 
Mozambique was hit with two major cyclones. Seven hundred people died 
and 650,000 were displaced. But when a similar situation occurred in 
2007 only 80 died, an 89% reduction.
    What made this dramatic difference? The government worked with 
relief and development organizations to conduct a detailed analysis 
identifying the 40 most vulnerable areas, home to nearly 6 million. At 
the community level disaster plans were developed and training 
exercises conducted. Early warning systems were created. In 2007 the 
activation of these plans and systems helped with the evacuation of 
those most at risk.\32\ Even though they are poor, these concerted 
efforts by the government, relief and development organizations, and 
their local communities made them less vulnerable.
---------------------------------------------------------------------------
    \32\  UNDP, Watkins, Fighting Climate Change, p. Box 4.6, p. 184.
---------------------------------------------------------------------------
    If success can be achieved in two of the poorest countries in the 
world, Malawi and Mozambique, then success can be achieved anywhere. 
And such successes not only save lives, they can be highly cost-
effective economically, with benefits exceeding costs anywhere from 1 
to 38 times, depending upon the project.\33\
---------------------------------------------------------------------------
    \33\ United Nations, International Strategy for Disaster Reduction 
(ISDR), Global Assessment Report on Disaster Risk Reduction: Risk and 
Poverty in a Changing Climate (United Nations: Geneva, 2009): p. 134; 
http://www.preventionweb.net. The IPCC also states that ``there is high 
confidence that there are viable adaptation options that can be 
implemented in some of these sectors at low cost and/or with high 
benefit- cost ratios. Empirical research also suggests that higher 
benefit-cost ratios can be achieved by implementing some adaptation 
measures at an early stage compared to retrofitting long-lived 
infrastructure at a later date.'' See IPCC, AR4, Synthesis, p. 56.
---------------------------------------------------------------------------
Enhancing Freedom by Helping with Adaptation
    For a freedom-loving people like ourselves, climate change 
represents a worldwide scourge. It is a freedom denier, a freedom 
destroyer, not only in terms of denying opportunities for individuals, 
but potentially for the cause of freedom in entire countries.
    A recent study has demonstrated that it is poor countries that lack 
a literate population that are more vulnerable to climate impacts. Why? 
``A literate population will be better able to lobby for political and 
civil rights, which in turn will allow it to demand accountable and 
effective government. Where such rights exist, governments are more 
likely to become accountable for reducing the impact of successive high 
mortality disasters, and are thus more likely to address 
vulnerability.''\34\ The history of our own freedom proves the point. 
If our Founding Fathers had not been literate there would have been no 
American Revolution, no Declaration of Independence, no Constitution, 
no Bill of Rights.
---------------------------------------------------------------------------
    \34\ Brooks, N., W.N. Adger and P.M. Kelly, ``The determinants of 
vulnerability and adaptive capacity at the national level and the 
implications for adaptation,'' Global Environmental Change, vol 15 
(2005): p. 161.
---------------------------------------------------------------------------
    As climate change helps to keep the poor, poor, it could also help 
rob them of their chance to become free in this democratic sense of 
being able to petition and influence one's government. More 
malnutrition, more stunted children, more maternal mortality, more loss 
of educational opportunities, and increasing conflicts over scarce 
resources--these consequences of climate change and others could either 
erode the democratic dimension of freedom or strangle it in its cradle.
    The point is this: climate change will help to keep them poor and 
will strengthen the possible stifling of the democratic dimension of 
freedom--one of the very things that are needed to make them less 
vulnerable.
    Given all of this, to be on the right side of history, to be on the 
right side of the cause of freedom today means overcoming the tyranny 
of climate change. This is one of the great causes of freedom in the 
21st Century.
    Christians believe that we don't simply have freedom for freedom's 
sake. We have it for God's sake. We have it for the sake of doing God's 
will. We have the gift of freedom so we can freely become the ever 
increasingly glorious images of Christ as we love God and love our 
neighbors as ourselves and care for the least of these we find in the 
ditch as if they were the LORD Himself.
    As the Apostle Paul said to the Galatians: ``It is for freedom that 
Christ has set us free. You, my brothers and sisters, were called to be 
free. But do not use your freedom to indulge the sinful nature; rather, 
serve one another in love. The entire law is summed up in a single 
command: `Love your neighbor as yourself' '' (5:1, 13-14).
    In America's best moments we have been the harbingers of freedom 
around the world. So too can we be in helping the poor adapt to climate 
change. We can and we must rise to this occasion. We must not pass by 
on the other side and ignore those with Christ in the ditch of global 
warming's impacts. As a compassionate country, we must fulfill the 
content of our character to maintain our moral strength, which is the 
backbone of our nation.
Funding
    Like we have done with AIDS and malaria and in times of major 
natural disasters, the U.S. should lead the world with our generosity 
in helping poor people adapt to consequences they did not cause. And 
while we may not have understood that our actions in burning fossil 
fuels would contribute to harmful impacts being visited upon them, that 
is in fact the case. Our country has a strong value of fairness, and it 
is only fair that we help those we have unintentionally harmed.
    Recent contributions from the rich countries, unfortunately, have 
been woefully inadequate. One estimate for targeted adaptation puts it 
at less than 0.2% of what is required.\35\
---------------------------------------------------------------------------
    \35\ UN, ISDR, Global Assessment Report on Disaster Risk Reduction: 
Risk and Poverty in a Changing Climate, p. 143.
---------------------------------------------------------------------------
    This of course begs the question: what amount of financial 
resources will be required? \36\
---------------------------------------------------------------------------
    \36\ For a very helpful Table summarizing the major reports 
estimating the investments needed for both mitigation and adaptation in 
developing countries, see the World Bank's World Development Report 
2010: Development and Climate Change (World Bank, 2009),Table 6.2 [p. 
270 of the embargoed draft pdf]: http://siteresources.worldbank.org.
---------------------------------------------------------------------------
    An estimate from the United Nations Development Program concludes 
that it will cost approximately $86 billion per year, which would 
represent a mere 0.2% of developed country GDP, or roughly one tenth 
what developed countries spend on their militaries.\37\
---------------------------------------------------------------------------
    \37\ UNDP, Watkins, Fighting Climate Change, p. 194.
---------------------------------------------------------------------------
    A study just released by the World Bank estimated targeted 
adaptation to cost between $75-100 billion a year between 2010-
2050.\38\
---------------------------------------------------------------------------
    \38\ World Bank, The Costs to Developing Countries of Adapting to 
Climate Change: New Methods and Estimates: The Global Report of the 
Economics of Adaptation to Climate Change Study, Consultation Draft, 
(World Bank 2009) pp. 4-6; http://siteresources.worldbank.org.
---------------------------------------------------------------------------
    Another estimate by the UN Framework Convention on Climate Change 
(UNFCCC) of some of the major areas that will require targeted 
adaptation provides a range of $28-67 billion, with the upper and lower 
ranges based upon how severe one assumes the impacts will be.\39\ Other 
respected experts have collectively criticized the UNFCCC funding 
levels as underestimating the costs ``by a factor of between 2 and 3'' 
for the areas estimated. A key sector not included by the UNFCCC, the 
protection of ecosystems, ``could add a further $65-300 billion per 
year in costs.'' \40\
---------------------------------------------------------------------------
    \39\ UNFCCC, Investment and Financial Flows to Address Climate 
Change, (October 2007): p. 8; http://www.preventionweb.net. When 
determining its estimate of how much adaptation funding will be 
required, the UNFCCC adheres to the concept of ``additionality.'' As 
they explain in their Nov 2008 update, ``the financing of adaptation 
needs to reflect the fact that adaptation is responding to the 
additional burden posed by climate change; quite distinct from the 
aggregate flow of resources towards overall socio-economic development 
goals.'' See UNFCCC, Investment and Financial Flows to Address Climate 
Change: An Update, p. 26.
    \40\ Martin Parry et al., Accessing the Costs of Adaptation to 
Climate Change: A Review of the UNFCCC and Other Recent Estimates 
(International Institute for Environment and Development and the 
Grantham Institute on Climate Change: London, Aug 2009): p.14; http://
www.iied.org.
---------------------------------------------------------------------------
    What should be the contribution from the U.S. Government for 
targeted adaptation? Given that historically our generous spirit as a 
country has led the U.S. to contribute 20-30% of the funds for major 
natural disasters and for such health problems like AIDS, let's assume 
25 percent.\41\ If we make a further assumption that the needs will be 
on the low end--$28 billion per year--then the minimum contribution 
from the U.S. Government would be $7 billion annually.
---------------------------------------------------------------------------
    \41\ The U.S. has contributed nearly 30% to the Global Fund for 
AIDS. See U.S. President's Emergency Plan for AIDS Relief (PEPFAR), 
2009 Annual Report to Congress, p. 31; http://www.pepfar.gov.
---------------------------------------------------------------------------
    This is the level of federal funding within comprehensive climate 
change legislation that the partner organizations of the National 
Religious Partnership for the Environment (NRPE) have called for. The 
NRPE includes the Evangelical Environmental Network (the organization I 
work for), the U.S. Catholic Conference of Bishops, the National 
Council of Churches of Christ, and the Coalition on the Environment and 
Jewish Life. Together, in a joint letter to Senators (see attached 
example addressed to Sen. Kerry), we have called for there to be in 
comprehensive cap-and-trade climate change legislation ``an allocation 
equivalent to $3.5 billion annually, starting in 2012, which moves 
rapidly toward $7 billion annually by 2020.''
    Unfortunately, the Waxman-Markey American Clean Energy and Security 
bill passed by the House of Representatives only provided a 1% 
allocation for international adaptation, which would be the equivalent 
of approximately $700 million--an amount that is woefully inadequate. 
Such funding levels must be increased significantly to capture the full 
support of the religious community.
    While such funding can be justified in a variety of ways, one 
important way for our country to understand financing for targeted 
adaptation is as a strategic investment.
    First, investments in targeted adaptation will in most cases 
generate a healthy rate of return (assuming the money is spent as 
intended). As mentioned previously, studies have shown that in the area 
of disaster risk reduction benefits can exceed costs anywhere from 1 to 
38 times depending upon the project. As a recent major report on 
adaptation puts it: ``well-targeted, early investment to improve 
climate resilience--whether in infrastructure development, technology 
advances, capacity improvement, shifts in systems and behaviors, or 
risk transfer measures--is likely to be cheaper and more effective for 
the world community than complex disaster relief efforts after the 
event.'' \42\ In other words, much better to avoid a big mess than have 
to clean one up. Much better to do things right the first time.
---------------------------------------------------------------------------
    \42\ Economics of Climate Adaptation Working Group, Shaping Climate 
Resilient Development: A Framework for Decision-making, p. 12; http://
www.mckinsey.com. This Working Group is a partnership of McKinsey and 
Co., the Global Environmental Facility, Climate Works Foundation, 
Rockefeller Foundation, Standard Charter Bank, Swiss Re, and the 
European Commission.
---------------------------------------------------------------------------
    Second, a stable world is in our national interest (as Gen. Wald 
will testify to much more authoritatively than I). Diminishing the ways 
climate change functions as a ``threat multiplier'' helps to keep our 
military personnel out of harm's way and forestalls situations that can 
become breeding grounds for terrorists. A stable world also enhances 
our economic security by facilitating the free flow of commerce.
    Former Senator John Warner has reminded us all--most recently at 
the July 30 hearing by the Environment and Public Works Committee on 
Climate Change and National Security--that America's military policy, 
energy policy and climate policies are interrelated and that, as he 
quotes Senator Kerry: ``Climate change injects a major new source of 
chaos, tension and human insecurity into an already volatile world.'' 
\43\ Helping the vulnerable adapt will dampen the prospects for such 
outcomes.
---------------------------------------------------------------------------
    \43\ See The Honorable John Warner (retired), Testimony before the 
Senate Environment and Public Works Committee, July 30, 2009; http://
epw.senate.gov.
---------------------------------------------------------------------------
    Third, the U.S. cannot overcome climate change on our own. It is an 
international problem requiring an international solution. Our 
investments in both climate mitigation and adaptation will be 
ultimately futile without an international treaty or agreement, 
especially since a recent McKinsey & Co analysis concluded that 67% of 
the greenhouse gas mitigation opportunities required to keep the world 
below 2 C above preindustrial levels (or about 1 F above 2009 levels) 
are found in developing countries.\44\ Such countries have made it 
clear that without sufficient funds for adaptation there will be no 
deal, and having sufficient dedicated funding for international 
adaptation in a climate bill is the best way for the United States to 
meet this need.
---------------------------------------------------------------------------
    \44\ McKinsey & Co., Pathways to a Low-Carbon Economy: Version 2 of 
the Global Greenhouse Gas Abatement Cost Curve (January 2009): p. 35 
http://www.mckinsey.com. According to the IPCC, keeping temperature 
rise to 2-2.4 C above pre-industrial levels would require a 
stabilization of GHG concentrations at between 445-490 ppm (parts per 
million). See IPCC, AR4, WG3, SPM, Table SPM.5, p. 15. See also, World 
Bank, World Development Report 2010, pp. 66-69 [embargoed pdf].
---------------------------------------------------------------------------
    Fourth and finally, remaining true to our character and our values 
of fairness, compassion, generosity, and freedom keeps us strong as a 
country.
    We have the means. Let us now summon the will. Thank you for your 
attention and for your leadership.


    Senator Menendez. Thank you, Reverend.
    Mr. Waskow?

  STATEMENT OF DAVID WASKOW, CLIMATE CHANGE PROGRAM DIRECTOR, 
                OXFAM AMERICA, WASHINGTON, D.C.

    Mr. Waskow. Good morning. Thank you, Chairman Menendez, 
Ranking Member Corker, and Senator Shaheen. I am David Waskow, 
the Climate Change Program Director at Oxfam America.
    Tomorrow, October 16th, is noteworthy for two reasons. It 
is World Food Day and it also marks the point 50 days before 
the international climate negotiations in Copenhagen in 
December. This date should serve as a reminder to us of two 
things. First, the struggle of vulnerable developing countries 
to maintain food security is becoming even more acute as 
climate change increases water scarcity and severe weather 
events. And second, we are nearing a critical moment in the 
international climate negotiations. In many ways, it is a 
moment of truth for the United States. Copenhagen is a 
tremendous opportunity for our country to inspire global change 
and demonstrate leadership on this unprecedented global 
challenge of climate change.
    So I would like to ask the members of the subcommittee to 
take a moment and imagine how the world might respond if the 
United States came to the global negotiations in December with 
a dramatic commitment to assist the most vulnerable, at-risk 
developing countries to adapt to the climate change they are 
least responsible for causing. How would this reposition our 
country not only on climate change but also on a host of other 
international issues related to our national priorities and 
economic security? And moreover, this is essential for the 
negotiations.
    Supporting countries hard hit by climate change is 
fundamentally important if the United States hopes to conclude 
a global climate deal. For many countries, from small island 
states to least-developed countries such as Bangladesh and many 
in Africa, to countries in the Andes suffering from glacial 
melt, adaptation to climate impacts is critically important. 
Indeed, for well over 100 nations, a vast majority of those in 
the negotiations, adaptation is a central element, not a 
peripheral issue in the talks for a post-2012 agreement.
    Also, for major developing countries such as South Africa 
and India, who have substantial populations living on less than 
$2 a day and have severe water scarcity challenges, adaptation 
is a core issue.
    And China has shown strong support for the efforts of other 
developing countries to address adaptation in the negotiations.
    As you know well, climate change requires global solutions, 
and in sum, without substantial resources for adaptation, we 
will not achieve an international agreement.
    As President Obama recently said, any effort that fails to 
help the poorest nations both adapt to the problems that 
climate change has already wrought and help them travel a path 
of clean development simply will not work.
    We also have other U.S. interests at stake. Let me briefly 
mention three in particular.
    First, passing climate legislation and leading in 
Copenhagen will build the global leadership role of the United 
States. Climate change is one of the greatest obstacles in the 
21st century to development and efforts to reduce global 
poverty. It even threatens to roll back many development gains 
the United States has spent precious time and resources to 
achieve. Even if greenhouse gas emissions were completely 
eliminated today, we would face a couple of decades of growing 
impacts that must be addressed.
    Some numbers. The International Food Policy Research 
Institute recently estimated that it will take $7 billion a 
year in climate adaptation efforts in agriculture alone from 
research on crop varieties to improved irrigation in order to 
avoid a large jump in child malnutrition. According to the 
World Bank, total adaptation needs in developing countries will 
average $75 billion to $100 billion a year over the next 40 
years. So we need to foster the ability of developing countries 
to cope or our best efforts to promote global development will 
be severely undermined.
    Second, as I am sure General Wald will testify, climate 
change already poses serious security consequences in fragile 
and impoverished countries. I have a map. As this map shows in 
very brief form--and I will not go into the details--stressed 
regions are also the ones that will be deeply affected by 
climate impacts. Simply put, our national security depends on 
human security abroad.
    Third, building resilience to climate impacts makes good 
economic sense. As a just-released report by McKinsey & Co. 
shows, many adaptation strategies from drip irrigation to 
buttressing infrastructure will provide greater economic 
benefits in the long run than they cost initially. Other 
studies have shown that disaster prevention efforts save $7 for 
every dollar spent.
    Building climate resilience is also an economic 
opportunity. Already we are seeing new markets for adaptation 
technologies and services such as water pumps and irrigation 
devices and early warning systems. U.S. businesses and workers 
can partner with communities internationally in this new 
adaptation marketplace. And I have another slide here. This 
slide shows a sampling of U.S. companies that stand to benefit 
from a robust adaptation market, and this is from a recent 
report we released, which I would be happy to share with the 
committee.
    Let me conclude by saying that Congress can and should lead 
the way by investing in adaptation solutions today that will 
pay off immediately and in the future. We urge you to ensure 
that a significant portion of the resources, again, the money, 
in a comprehensive climate and energy legislation are devoted 
to adaptation efforts in vulnerable developing countries. 
Providing this support is a critical step that will send a 
clear message to other nations and demonstrate our leadership 
globally.
    Thank you very much.


    [The prepared statement of Mr. Waskow follows:]


          Prepared Statement of David Waskow, Climate Change 
                    Program Director, Oxfam America

    Good morning Mr. Chairman, Senator Corker and Members of 
Subcommittee. I am David Waskow, the Climate Change Program Director at 
Oxfam America.
    Oxfam America is an international development and humanitarian 
organization that works with communities and partner organizations in 
more than 120 countries to create lasting solutions to poverty, hunger, 
and injustice.
    We have come to see climate change as one of the greatest 
challenges to our efforts in the 21st century to promote development 
and reduce global poverty. In our operations spanning Africa, Latin 
America, and East Asia, our staff and partners are already responding 
to the serious impacts of climate change, from increasingly severe 
weather events to water scarcity. Moreover, as the science indicates, 
poor and vulnerable communities around the world will increasingly bear 
the brunt of the consequences of global warming, threatening the lives 
of millions of people and undermining global stability and security.
    As you know, climate change is a global problem that requires 
global solutions and cooperation. This is true not only to reduce 
greenhouse gas emissions, but also to combat climate change impacts 
already underway. In order for the United States to lead in addressing 
the devastating effects of climate change on the world's poor, as well 
as successfully negotiate a comprehensive global climate agreement, we 
must provide meaningful resources to support the efforts of vulnerable 
developing countries to adapt and build resilience to climate impacts.
    Millions of lives and, in some cases, the literal survival of 
vulnerable nations depends on a significant and sustained financial 
commitment from the United States and other developed countries. 
Moreover, we cannot afford to put our security at risk as a result of 
inattention to the destabilizing impacts of climate change in 
impoverished countries around the world. The necessity of such action 
is complemented by the economic benefits it can provide, both for 
developing countries themselves and for businesses and workers in the 
United States who can partner with communities internationally to 
deliver adaptation products and services.
    Congress has a unique opportunity to invest in adaptation solutions 
today that will pay off both immediately and in the future, and we urge 
you to help ensure that at least 3% of the resources in comprehensive 
climate and energy legislation are devoted to adaptation efforts in 
vulnerable developing countries. While these resources alone would not 
meet the substantial need for adaptation funding according to recent 
estimates, and must be augmented through other sources, providing this 
support in a U.S. climate bill is an important step to addressing 
critical needs in developing countries.
    As President Obama recently stated before the United Nations: ``For 
these are the nations that are already living with the unfolding 
effects of a warming planet--famine and drought; disappearing coastal 
villages and the conflict that arises from scarce resources. Their 
future is no longer a choice between a growing economy and a cleaner 
planet, because their survival depends on both. It will do little good 
to alleviate poverty if you can no longer harvest your crops or find 
drinkable water. That is why we have a responsibility to provide the 
financial and technical assistance needed to help these nations adapt 
to the impacts of climate change and pursue low-carbon development.'' 
\1\
---------------------------------------------------------------------------
    \1\ Speech to United Nations General Assembly by President Barak 
Obama, as released by the White House, September 22, 2009.
---------------------------------------------------------------------------
    The reality is dire for the world's poor who stand on the front 
lines of the global climate crisis that they are least responsible for 
causing. People living in developing countries are 20 times more likely 
to be affected by climate-related disasters--such as floods, droughts, 
and hurricanes--compared to those living in the industrialized world. 
In the 1990s alone, nearly two billion people in developing countries 
were affected by climate-related disasters.\2\
---------------------------------------------------------------------------
    \2\ Jonathan Pershing (World Resources Institute): testimony to the 
House of Representatives Subcommittee on Energy and Air Quality, 
Committee on Energy and Commerce; Hearing on Climate Change, 
International Issues, and Engaging Developing Countries; March 27, 
2007.
---------------------------------------------------------------------------
    The estimates of climate change's contribution to worsening 
conditions are disturbing. Weather extremes, food and water scarcity, 
and climate-related public health threats are projected to displace 
between 150 million and one billion people as climate change 
unfolds.\3\ Our already strained capacity to respond to natural 
disasters and health crises around the world is being stretched even 
further by the increasing harm caused by climate change impacts. 
Developing countries' struggle to maintain food security is made even 
more acute in the face of declining agricultural productivity and the 
loss of crops to weather-related disasters. The very lifeline of the 
world's poorest countries, where communities depend on agriculture for 
their very existence, is being frayed.
---------------------------------------------------------------------------
    \3\ Sir Nicholas Stern, ``Stern Review on the Economics of Climate 
Change,'' (Cambridge, UK: Cambridge University Press, 2007) www.hm-
treasury.gov.uk; and Christian Aid, ``Human Tide: The Real Migration 
Crisis,'' May 2007, www.christianaid.org.uk.
---------------------------------------------------------------------------
    Moreover, the consequences of climate change reach significantly 
beyond these direct impacts. Global stability and security will be 
undermined by increasing migration and refugee crises, by conflicts 
over ever-scarcer natural resources, and by economic and political 
destabilization as poverty and food insecurity grow.
    Reducing these threats will require action today so that vulnerable 
countries are able to adapt to and build resilience to climate impacts. 
For the long-term, the most important preventive action we can take is 
a dramatic, immediate reduction in the greenhouse gas emissions that 
cause climate change. Indeed, adaptation needs will be far greater in 
the future if we do not take concerted action now to limit those 
emissions. Yet it is also increasingly clear that the consequences of 
climate change are already being felt, and that those consequences are 
often experienced first and worst by vulnerable communities in poor 
countries. As the Stern Review has noted, even if emissions were to be 
eliminated today, we would still face at least two decades of 
increasing global temperatures.\4\
---------------------------------------------------------------------------
    \4\ Nicholas Stern, ``The economics of climate change: The Stern 
review'' (Cambridge, UK: Cambridge University Press, 2007).
---------------------------------------------------------------------------
    Taking international action on adaptation is made all the more 
urgent because of the increasingly serious impacts from climate change 
we are already seeing today. Earlier this year, the International 
Scientific Congress on Climate Change warned that global warming is 
outpacing even recent scientific projections. ``Recent observations 
confirm that, given high rates of observed emissions, the worst-case 
IPCC [Intergovernmental Panel on Climate Change] scenario trajectories 
(or even worse) are being realized.\5\ For many key parameters, the 
climate system is already moving beyond the patterns of natural 
variability within which our society and economy have developed and 
thrived.''
---------------------------------------------------------------------------
    \5\ The International Scientific Congress on Climate Change, ``Key 
Messages from the Congress,'' March 12, 2009, Copenhagen. http://
climatecongress.ku.dk.
---------------------------------------------------------------------------
    To cope with these consequences, the World Bank estimated in 
September 2009 that developing countries would require $75-100 billion 
annually during the period 2010-2050.\6\
---------------------------------------------------------------------------
    \6\ World Bank, ``Economics of Adaptation to Climate Change 
Study,'' September 2009.
---------------------------------------------------------------------------
    In response to this reality, adaptation has come to the fore in 
international climate change negotiations. Making investments in 
international adaptation action in developing countries will be 
essential to achieving a global agreement that puts the world on the 
path to a future that is resilient to climate change.
    For many countries--from small island states to least developed 
countries such as Bangladesh and many African countries to countries 
like Peru suffering the consequences of glacial melt--adaptation is not 
a peripheral issue in the negotiations for a post-2012 climate 
agreement. Indeed, for well over 100 countries--a vast majority of the 
countries that participate in the negotiations--adaptation to climate 
consequences is a central element that must be addressed in a serious 
way and with substantial resources in any global deal. Major developing 
countries such as South Africa and India, who have substantial 
populations living on less than $2 a day and who face growing water 
scarcity challenges, also see adaptation become a fundamental concern 
in the international process.
    Developing country leaders have been outspoken about the importance 
of adaptation. In a letter to this Committee dated July 30, 2009, the 
Bangladesh Ambassador to the United States stated, ``such an agreement 
will be difficult to achieve without adequate resources for the least 
developed countries and other developing countries to adapt to climate 
change impacts. The efforts to address these impacts and to build 
resilience to climate change are vastly under-resourced.''
    At the recent UN Summit on Climate Change, Mohamed Nasheed, 
President of the Republic of Maldives, a small island state, appealed 
to world leaders on September 22, 2009: ``We stand here to tell you 
just how bad things are. We warn you that unless you act quickly and 
decisively, our homeland and others like it will disappear beneath the 
rising sea before the end of this century. We ask you what will become 
of us.''
    The Bali Action Plan, which set out the parameters for the 
international negotiations leading to Copenhagen in December, 
established adaptation as one of the four pillars of any global deal. 
Adaptation is also a substantial area of negotiation in two of the 
other pillars, finance and technology. For many developing countries, 
the current attention to adaptation is a welcome recognition of its 
importance after years of neglect following commitments made in the UN 
Framework Convention on Climate Change, which was agreed in 1992 and to 
which the United States is party.
    In the current negotiations, developing countries are seeking 
support for efforts already underway to adapt to and build resilience 
to the climate impacts they face. For example, more than 40 least 
developed countries have developed National Adaptation Programs of 
Actions (NAPAs) that identify urgent and immediate adaptation needs and 
actions. Many of these countries and others have now embarked on 
broader and longer-term adaptation planning processes. Developing 
countries often have the strategies in place to combat climate impacts; 
what is missing are the vitally needed resources to carry out their 
plans.
    Climate adaptation is an urgent necessity for developing countries. 
Supporting vulnerable countries with the resources to undertake their 
adaptation efforts would be a wise investment by the United States. 
Taking action now will pay for itself many times over. Reducing risks 
from climate-related disasters, ensuring that water resources are 
available, and increasing food security will help reduce the costs 
faced in disaster response, food assistance, and security engagements. 
A recent report conducted by McKinsey & Co. on the economics of 
adaptation showed that a wide range of adaptation strategies--from 
infrastructure improvements to technological measures and disaster 
relief programs--will provide much greater economic benefits than their 
initial costs.\7\
---------------------------------------------------------------------------
    \7\ Economics of Climate Change Working Group, ``Shaping Climate-
Resilient Development: A Framework for Decision-making,'' 2009.
---------------------------------------------------------------------------
    Building resilience in the face of climate change is also an 
economic opportunity that should be seized. Innovative adaptation 
solutions can be an integral part of a global transition toward a clean 
and climate-resilient economy. From improving water systems to 
developing more resilient agricultural practices, adaptation can 
provide substantial economic benefits. Already we are seeing a need for 
and development of new markets for technologies and services to help 
communities build resilience to climate change impacts, such as water 
pumps and filtration devices, irrigation equipment, early warning 
systems to forecast storms, flood, and drought, weather-indexed micro-
insurance programs, and renewable energy systems to support adaptive 
strategies.
       impacts on vulnerable communities in developing countries
    While the United States is facing a significant challenge in 
addressing the consequences of climate change, the capacity of 
vulnerable communities in developing countries to cope with climate-
related impacts is even more limited and is being stretched beyond 
capacity. Already, the number of people affected by climate-related 
disasters in developing countries has increased exponentially during 
the past four decades, as demonstrated in the graph below.
    This trend is expected to continue. By 2015, on average more than 
375 million people per year are likely to be affected by climate-
related disasters. This is over 50 percent more than have been affected 
in an average year over the last decade.\8\ Weather-related disasters 
around the world have more than doubled since the 1980s.\9\ The 
estimates of climate change's contribution to worsening conditions are 
alarming. By 2020, up to 250 million people across Africa could face 
increasingly severe water shortages, according to the IPCC. By mid-
century, more than a billion people will face water shortages and 
hunger, including 600 million in Africa alone.
---------------------------------------------------------------------------
    \8\ Oxfam International, ``The Right to Survive,'' April 2009. 
http://www.oxfam.org.
    \9\ Low, Petra, ``Weather-related Disasters Dominate,'' Worldwatch 
Institute, October 2, 2008.
---------------------------------------------------------------------------
    More than 75 percent of people in developing countries depend on 
agriculture as the main component of their livelihoods. According to 
IPCC estimates, some countries' yields from rain-fed crops could be 
halved by 2020 due to climate impacts. According to a recent study by 
the International Food Policy Research Institute (IFPRI), climate 
change will lead to a 20% increase in child malnutrition by 2050, and 
more than $7 billion is needed annually in adaptation funding to 
prevent this growth in child hunger.\10\
---------------------------------------------------------------------------
    \10\ International Food Policy Research Institute, ``Climate 
Change: Impact on Agriculture and Costs of Adaptation,'' September 
2009.
---------------------------------------------------------------------------
    If the moral and ethical arguments for dealing with the climate 
crisis are not yet evident, the economic imperative to reduce emissions 
is extremely clear. The Stern Review concluded that global warming may 
cost the world close to $10 trillion by next century due to rising sea 
levels, famine, storms and other environmental harm. An Oxfam analysis 
of the costs of adapting to climate impacts in developing countries has 
found that the needs are at least $50 billion annually, and potentially 
higher, when existing investments are protected and community-level 
adaptation needs are addressed.
    As noted above, the World Bank released a study in September 2009 
that estimates the cost of adaptation in developing countries to be 
$75-100 million annually in the period 2010-2050. Similarly, the United 
Nations Development Program (UNDP) 2008 Human Development Report 
estimates that the adaptation needs of developing countries will total 
up to $86 billion per year from 2015 onward. This estimate is based on 
the costs of integrating climate-resiliency into development activities 
(such as with irrigation systems and preventive health programs), 
strengthening infrastructure such as schools and roads, and adding to 
disaster preparedness and response capacity.
  national security, global stability and building climate-resilience
    Our national interest will not be well-served by a failure to 
tackle the powerful ripple effects that climate change will cause in 
some of the most politically sensitive parts of the world. In a report 
from CNA, a number of retired U.S. admirals and generals refer to 
climate change as a ``threat multiplier,'' presenting significant 
national security challenges for the United States.\11\
---------------------------------------------------------------------------
    \11\ The CNA Corporation, ``National Security and the Threat of 
Climate Change,'' 2007. For instance, the increased scarcity of natural 
resources has contributed to conflicts in areas such as Darfur. The 
recent conflict there coincides with a 40 percent decline in 
precipitation in Sudan, which has been linked by scientists to global 
temperature change and changes in rainfall patterns tied to warming in 
the Indian Ocean. Such examples provide us with a glimpse at what is to 
come in the developing world if we do not build resilience to the 
consequences of climate change. One of the recommendations of the CNA 
report is for the U.S. ``to assist nations at risk to build the 
capacity and resiliency to better cope with the effects of climate 
change. Doing so now can help avert humanitarian disasters later.''
---------------------------------------------------------------------------
          adaptation as catalyst for new growth and resiliency
    Acting today to reduce disaster risks and improve livelihoods in 
agriculture and other sectors is essential in avoiding even greater 
costs later. For instance, providing improved irrigation and water 
retention systems will help reduce future food aid costs in times of 
scarcity or famine. Similarly, protecting infrastructure or putting in 
place natural sea buffers such as mangrove or cypress forests will help 
reduce future disaster assistance costs.
    The financial benefits from taking preventive action have been 
demonstrated widely. According to an analysis by the U.S. Geological 
Survey and the World Bank, an investment of $40 billion to reduce 
disaster risk is capable of preventing disaster losses of $280 billion. 
A study conducted by the British international development agency finds 
that every U.S.$1 invested in pre-disaster risk management activities 
in developing countries can prevent U.S.$7 in losses.
    In China, U.S.$3 billion spent on flood defenses in the four 
decades up to 2000 is estimated to have averted losses of U.S.$12 
billion. Evidence from a mangrove-planting project designed to protect 
coastal populations from storm surges in Viet Nam estimated economic 
benefits that were 52 times higher than costs. In Brazil, a flood 
reconstruction and prevention project designed to break the cycle of 
periodic flooding in 2005 has resulted in a return on investment of 
greater than 50 percent by reducing residential property damages.
    Bangladesh provides a particularly compelling example of the 
benefits of prudent planning and risk reduction. In 1970, up to 500,000 
people perished in the Bhola cyclone in Bangladesh, and in 1991 another 
138,000 people were killed in the Chittagong cyclone. Bangladesh has 
since instituted a national cyclone preparedness program that includes 
shelters, early warning systems and community-based preparedness 
measures.
    When Cyclone Sidr struck Bangladesh in 2007, a network of some 
34,000 volunteers were mobilized to effectively communicate risks to 
millions of people--even where many had limited or no access to TV and 
radio--to encourage evacuation to a network of cyclone shelters. As a 
result, while 3,300 people perished, far more lives were saved compared 
to the earlier cyclones. By contrast, when Cyclone Nargis hit the Burma 
(Myanmar) delta region in May 2008, there was a broad failure by the 
government to alert residents and to provide protection. As a result, 
UN agencies report that more than 100,000 perished in the cyclone.
    Working with vulnerable communities in building their resilience to 
the consequences of climate change can also provide a means to enable 
these same communities to become more economically, socially and 
politically resilient in the broadest sense. For instance, reliable 
access to essential services such as sanitation and clean water can 
help build the capacity of communities to respond to unpredictable 
climate events such as floods and drought but also can serve as a 
foundation for economic growth and development.
    Often, building resilience means enhancing existing development 
approaches, such as improving agricultural techniques or water supply 
systems. At other times, however, the challenges will be new and 
different. For instance, some communities will have to adapt to rapidly 
melting mountain glaciers-creating excessive runoff and the potential 
for unprecedented floods now while leading to scarcer water supplies in 
future years once the glaciers are gone. These communities could 
benefit from the creation of reservoirs and water impoundments to 
capture and store water resources that will become increasingly scarce 
in the future. Alternatively, these communities may have to create 
flood warning systems to deal with higher water flows and may have to 
change agricultural practices and the crops they grow to deal with 
water abundance in the short term and scarcity sometime in the future.
    In some cases, adaptation strategies can also provide important 
benefits in reducing or sequestering greenhouse gas emissions. For 
example, agricultural practices involving agroforestry; increasing soil 
carbon from reduced tillage, mulching, or other practices; and 
efficient water usage can provide both adaptation and emissions 
reduction benefits.
    Vulnerable communities are engaging in a variety of resilience-
building approaches that promote economic development and poverty and 
improve climate-change resilience. Some examples include:


   In the Arequipa region of Peru, small farmers are installing a new 
        system of gravity-fed irrigation to ensure that pastures are 
        properly watered, an increasingly difficult task as water 
        supplies decrease due to the overly rapid melting of glacial 
        water sources. Other initiatives in the region include 
        installing radio networks to ensure that remote communities are 
        informed of any severe weather patterns.

   In Karnataka, India, the local government has initiated an 
        innovative watershed development project. Small dams now catch 
        the water from monsoon rains before the water disappears from 
        the watershed, and the water is slowly absorbed into the ground 
        to replenish the local aquifer and refill dry wells.

   In Ethiopia, farmers are being trained in practices such as 
        appropriate crop spacing and crop rotation, techniques which 
        also increase farm productivity. Farmers have also learned 
        skills and strategies such as water harvesting and carefully 
        selecting seeds based on their capacity to cope with climate 
        variability. In addition, distribution of energy-saving stoves 
        has decreased unsustainable use of firewood and the workload of 
        the women and children who gather it.

   In Cambodia, small-scale farmers are implementing an agricultural 
        technique called System of Rice Intensification (SRI). SRI has 
        been developed to revive traditional agricultural techniques 
        for rice farming that may prove less water intensive and more 
        productive than other agricultural approaches.


    A recent cost-benefit analysis conducted by McKinsey & Co. for the 
Economics of Climate Adaptation Working Group of the World Bank found 
that the development of new areas of cash crop production in countries 
like Mali could avert the country's expected economic loss from climate 
change and even generate additional revenue. The analysis also found 
that climate resilience measures can have a positive impact on health. 
In Guyana, putting in place basic flood-proofing measures and emergency 
response capabilities would also significantly reduce mortality.\12\
---------------------------------------------------------------------------
    \12\ Economics of Climate Change Working Group. ``Shaping Climate-
Resilient Development: A Framework for Decision-making,'' 2009.
---------------------------------------------------------------------------
    Meanwhile, for many companies, there are critical overlaps between 
climate impacts that will affect their supply chains and impacts on 
local communities. For example, water scarcity can affect the 
production of cotton for the apparel industry so that finding ways to 
protect shared water resources can be enormously beneficial both to 
those companies and to communities.
    Responding to climate change impacts affecting poor communities may 
also present new business opportunities and spur economic development 
in some of the poorest regions of the world. Recent interest in 
``climate-risk'' insurance products by the insurance industry offers 
one indication that global financial institutions understand the costs 
and benefits of both emissions reduction and building climate 
resilience aimed at hedging future climate risks.
    In Ethiopia, where 85 percent of the population is dependent on 
rain-fed agriculture, Oxfam is working with the insurance company Swiss 
Re and small-scale farmers to pilot a weather-indexed micro-insurance 
project.
    Meanwhile, cutting-edge companies with major U.S. operations are 
already developing and deploying innovative technologies and services 
that help communities adapt to droughts, floods, storms, and other 
climate-change impacts. Climate resilience solutions take many forms. 
For example, Pentair, a Minnesota-based company with nearly $3.5 
billion in annual revenue, manufactures technologies for the entire 
water cycle--from pumps to filters. The company has installed and 
maintained filtration systems that provide clean drinking water to 
rural communities in India and Honduras. General Electric is supplying 
solar energy modules and water filtration technology to a new 
initiative to increase the availability of drinking water in rural 
areas of India and other developing countries in the East Asia region 
and Africa.
    The development of new, clean energy technologies to support 
climate adaptation and resilience in developing countries is another 
arena for business opportunities. Energy poverty, or the absence of 
access to reliable energy services, affects approximately one-third of 
the world's population, with 80 percent of those in South Asia and Sub-
Saharan Africa. Building a renewable energy future in vulnerable 
countries can provide the developing world with the infrastructure 
needed for some critical adaptation strategies such as water pumps, 
while also helping developing nations grow along a low-carbon pathway. 
For example, General Electric's Homespring system harnesses solar 
energy to power water apparatuses in off-the-grid communities in Africa 
and Asia.
    The map in the appendix represents a sampling of companies 
operating in the U.S. that develop products and provide services that 
build climate preparedness. These and other firms stand to benefit from 
an increase in adaptation market opportunities that spur innovation and 
create jobs. Public financing for climate change adaptation will 
increase demand opportunities for well-positioned companies.
     achieving a successful outcome in international negotiations 
             and u.s. support for international adaptation
    Climate change requires a global solution, including investments in 
international adaptation efforts around the world. Achieving a 
successful outcome in the international negotiations will depend on the 
readiness of the United States and other developed countries to support 
the efforts of developing countries to adapt and build resilience in 
the face of the climate change challenge.
    The most important element for success is substantial resources for 
adaptation in vulnerable developing countries. These resources must be 
new and additional to existing official development assistance (ODA) 
commitments. Climate change is a new burden on developing countries; 
the resources to address this additional obstacle to development should 
not come from aid commitments intended to address underlying, already 
existing development challenges. Health and education development 
programs, for example, should not be diminished in order to pay for 
addressing climate challenges such as water scarcity or increasingly 
severe storms and floods.
    The amount of funding currently being generated and distributed to 
support adaptation in vulnerable countries is woefully inadequate when 
compared to the current estimates of need. According to the World Bank, 
resources for multilateral adaptation finance initiatives included $172 
million total for the Least Developed Countries Fund (as of October 
2008); $600 million total in pledges for the World Bank's Climate 
Investment Fund/Pilot Program on Climate Resilience (due to sunset when 
a post-2012 climate agreement is in place): an estimated $300-600 
million/year for the Kyoto Protocol Adaptation Fund, to which the 
United States is not a party; and $50 million total for a special 
Global Environment Facility adaptation fund.\13\
---------------------------------------------------------------------------
    \13\ World Bank, ``Economics of Adaptation to Climate Change 
Study,'' September 2009.
---------------------------------------------------------------------------
    While adaptation funding should be new and additional to existing 
ODA commitments, adaptation strategies and programs should be aligned 
with national development strategies in developing countries and a U.S. 
development strategy. If adaptation is not carried out in alignment 
with broader development approaches, it will not provide the greatest 
possible benefit for development. Indeed, in many cases, adaptation 
practices must expand upon existing development approaches.
    In addition to providing adequate resources, an international 
climate agreement, as well as Congressional legislation, should result 
in an appropriate structure and appropriate delivery mechanisms for 
international adaptation assistance. The following are key elements to 
address:


   Adaptation efforts in developing countries should be community-
        based and ensure the full engagement of local communities in 
        the development and implementation of adaptation strategies and 
        activities. Such approaches have the greatest likelihood of 
        success on the ground.

   Adaptation resources should be focused on the most vulnerable 
        communities and populations in developing countries. Gender 
        should be a key consideration in deciding where to focus 
        resources; women are often the most vulnerable to climate 
        impacts because of their role in providing food and water for 
        their households.

   Bilateral adaptation assistance should include multi-year funding 
        for developing countries, based on agreements regarding 
        national objectives for enhancing climate resilience.

   Multilateral adaptation funding should be overseen and governed in 
        a way that ensures fair representation for vulnerable 
        developing countries. To best achieve this, funding should be 
        governed through a funding body under the oversight of the 
        parties to the UN Framework Convention on Climate Change 
        (UNFCCC), the principal international venue for addressing 
        climate adaptation.
                               conclusion
    We appreciate this subcommittee's leadership on climate change and 
the ways in which we can deal with its consequences. It is not too late 
to demonstrate our resolve and to lead the world in addressing one of 
the greatest challenges of this century. Thank you for the opportunity 
to appear before you today.


    Senator Menendez. Thank you.
    Dr. Green?

 STATEMENT OF DR. KENNETH P. GREEN, RESIDENT SCHOLAR, AMERICAN 
             ENTERPRISE INSTITUTE, WASHINGTON, D.C.

    Dr. Green. Thank you, Mr. Chairman, Chairman Menendez, 
Senator Corker, members of the subcommittee. I am Kenneth 
Green, a Resident Scholar at the American Enterprise Institute 
where I study energy and environmental policy.
    Thank you for inviting me to testify today on a topic that 
I believe has received insufficient attention since the threat 
of climate change came to the attention of policymakers 
worldwide. That topic is the need to focus on adaptive 
responses to climate variability whether caused by human action 
or by the influence of bio-geochemical cycles, ocean currents, 
or changes in solar activity.
    These views are also my own. They do not represent anyone 
other than myself. AEI does not have official positions. My 
words are my own.
    Before I begin the body of my remarks, I would like to 
start where I state my beliefs and biases so people can 
understand what I am saying in context. By training I am an 
environmental scientist. I received my doctorate in 
environmental science and engineering at UCLA. By vocation, I 
am a public policy analyst that worked for 15 years analyzing 
environmental policy in California, as you mentioned, in Canada 
at the Fraser Institute, and here in Washington nationally.
    I do my best to just read the science. I actually subject 
myself to a masochistic ritual of reading the IPCC reports 
every 5 years when they come out. And hence, I accept that 
greenhouse gases can cause heat retention in the atmosphere, 
though I believe it will be on the modest side based on what we 
have seen in 20th century, and having looked at my 401(k) 
recently, I place virtually no faith in predictive models.
    My policy analysis--actually I am going to move ahead here 
to the issue at hand. What is the best response to climate 
variability domestically and internationally?
    We have heard about the question of throwing money at it, 
and I am going to actually look at this a different way. You 
can sort of sum up what I am going to say by saying if you give 
a man a fish, you feed him for a day. If you teach how to fish, 
you feed him for a lifetime. And that is what we need to be 
doing.
    Since the earliest days of climate policy development, the 
world has been focused on mitigating greenhouse gas emissions 
rather than on adaptation. In fact, the UNIPCC and 
environmental groups have tended to scoff at adaptation because 
they believe it implies accepting that the climate will change 
rather than----
    [Interruption from the audience.]
    Dr. Green. Thank you very much.
    Senator Menendez. We appreciate the civil expression but I 
think you got your message across, and we want to let Dr. Green 
continue. Doctor, go ahead.
    Dr. Green. Thank you very much.
    Where was I? Oh, anyway, the environmental groups and the 
IPCC have generally tended to favor mitigating greenhouse gas 
emissions rather than funding resilience. But as we know, some 
risks are not exactly predictable. We do not know exactly where 
the risks of climate change will manifest or how they will 
manifest, and as Aaron Wildavsky, a great policy analyst, 
pointed out, in many cases building resilience is better than 
attempting to head risks off at the pass.
    What does it mean to build resilience? I think we can build 
resilience both nationally and internationally by achieving 
several aims.
    The first is right now we subsidize risk-taking. We 
subsidize people living in coastal areas. We subsidize people 
living in drought-prone areas and flood-prone areas because 
governments intercede when floods, droughts, and storm damages 
happen and we often allow people to rebuild right in the same 
place. The subsidization of risk leads people to these fragile 
areas that we are afraid they will face damage in, and we 
should be finding ways to de-subsidize risk-taking, not only 
here but also building institutions abroad so that people pay 
the full cost of their choices of where they choose to live.
    Second, the way we manage our infrastructure and the way 
that developing countries are going to manage their 
infrastructure as they build it is very important. If we do not 
price our infrastructure and build it according to market 
signals that can maintain it, what happens is we build the 
infrastructure and then it is not updated. It is not 
maintained. It is not made resilient in the face of change. And 
so establishing full pricing of infrastructure is a vitally 
important action as well. Roadways, highways as an example, 
water infrastructure, waste water infrastructure, all of these 
things can be expected to be impacted by climate change. All of 
them will react better if they are priced to systems where 
people are paying--getting a price signal for how variable 
their climate is and how dangerous it is to be in a certain 
place climatically.
    Finally, some people say, well, what about the people who 
cannot do this? What about countries that are simply too poor? 
They cannot get away. Should we not have a climate adaptation 
fund?
    I am a little dubious about this because if you look at 
what happens with trust funds, they often wind up being used 
today and replaced with IOUs tomorrow. And handing our great 
grandchildren an obligation without resources strikes me as 
being a poor choice in effectiveness and also poor ethically.
    I am concerned that in fact this would make the problem 
worse. Establishing a fund would lead people to take greater 
risks knowing that there is a fund waiting there to bail them 
out. It would tend to lead them not to take adaptive measures 
ahead of time. And so, in fact, it might make the problem worse 
by building complacency that others will come in and fix what 
needs to be fixed.
    My full comments will be submitted to the record, and I 
will be glad to take your questions. Thank you for the couple 
of extra seconds, and thank you for the civil and quiet 
protest.


    [The prepared statement of Dr. Green follows:]


               Prepared Statement of Dr. Kenneth P. Green

    Mr. Chairman, Senator Menendez, members of the committee:
    Thank you for inviting me to testify today on a topic that, I 
believe, has received insufficient attention since the threat of 
climate change came to the attention of policymakers world-wide. That 
topic is the need to focus on adaptive responses to climate 
variability, whether caused by human action or by the influence of bio-
geochemical cycles, ocean currents, and changes in solar activity.
    Before I begin my remarks, I always like to state my beliefs and 
biases, so my comments can be understood in proper context. By 
training, I'm a biologist and environmental scientist. By vocation, I 
am a public policy analyst, having worked for 15 years in think tanks 
in the U.S. and Canada.
    I do my best to keep my science free of biases--I just try to 
figure out what the science really says, and look past the hype. Hence, 
I accept that greenhouse gases can retain additional heat in the 
atmosphere, though I believe that heat the heat retention capability of 
the greenhouse gases is quite modest, based on what we've observed in 
the 20th Century. I do not believe in predictive climate models, or 
most other forms of forecasting other than extrapolation for very 
modest periods of time. Nonetheless, what we have learned about the 
variability of the Earth's climate holds an important lesson for us 
about the need to build climate resilience into our private and public 
institutions.
    My policy-analysis, on the other hand, is not value-neutral: I hold 
environmental protection in very high regard (I wouldn't have spent 16 
years in college studying biology and the environment if I didn't), but 
I believe that environmental protection must complement, rather then 
displace, other values such as fiscally responsible governance; 
personal freedom; economic opportunity and prosperity; free enterprise; 
limited government; and so on. I also believe that our best actions 
abroad are to help people develop the institutions of liberal democracy 
that allow them to rise out of poverty.
    Now, to the issue at hand: what is the best response to climate 
variability, both domestically, and internationally?
    Since the earliest days of climate policy development, the world's 
focus has been on the mitigation of greenhouse gas emissions rather 
than adaptation. In fact, the United Nations Intergovernmental Panel on 
Climate Change (IPCC) has always discussed the idea of adaptation to 
climate change as a second- or third-best policy response-something to 
be done only after every possible effort has been made to reduce GHG 
emissions.
    Both governmental and environmental groups have generally been 
hostile to adaptation-based responses to climate change, as they view 
such approaches as surrender, an acceptance of the idea that GHG 
emissions will continue, that the climate will change, and that people 
will come to believe they can adapt. They fear that a focus on adapting 
to climate change would detract from a focus on mitigating emissions.
    But as Aaron Wildavsky, one of the great policy analysts of the 
20th Century documented, some risks are unsuited to pre-emptive 
mitigation. Attempting to head risks off ahead of time generally fails 
unless the nature of the risk is extremely well known, and the efficacy 
of the proposed intervention is equally well known. Consider this: say 
that you're a batter, and you're 70% sure that you know the pitcher is 
going to throw you a fast ball. Your success hitting that particular 
pitcher's fast ball is also 70%. What's the probability you'll actually 
hit the ball? Only 49%. The other 51% of the time, either he throws a 
different pitch and you miss, or he throws the fastball and you miss.
    In the context of climate change, our level of information about 
where specific harms will manifest is far, far lower than 70%, and our 
understanding of whether our mitigation efforts will negate any 
particular harm is virtually nil. Clearly, the focus on greenhouse gas 
mitigation, both domestically and internationally, has been misplaced, 
and the money and attention of world leaders toward greenhouse gas 
mitigation efforts would be best directed elsewhere.
    Instead of seeking greenhouse gas reductions, what we need to 
foster, as Wildavsky called it, is resilience: the ability to withstand 
changes, and bounce back from them. We need to encourage others to 
build their own climate resilience as well. What makes for climate 
resilience? I would argue that we can establish climate resilience with 
three efforts.
    The first effort is to remove the incentives that lead people to 
live in climatically fragile areas, that is to say, at the water's 
edge, in drought-prone locations, in flood-prone locations, and so on. 
At present, our government, and other governments, serve as the insurer 
of last resort. When people who live at water's edge or in a flood 
plain are hit by storms or floods, governments intervene not only to 
rescue them and their property if possible, but then provide rebuilding 
funds to let the people build right back where they are at risk. The 
United States is currently doing this in New Orleans, where people are 
re-building in an area that is still at risk from storm surges and 
levee failure.
    Both domestic programs that subsidize risk-taking and international 
aid programs that subsidize risk taking should be phased out as quickly 
as possible, replaced with fully-priced insurance regimes. Eliminating 
risk subsidies would show people some of the true cost of living in 
climatically risky areas, and would, over time, lead them to move to 
climatically safer places where they can afford to insure their 
property and safety.
    A second effort pertains to infrastructure. Again, these are 
efforts that should be taken both domestically and, as infrastructure 
is built in developing countries, internationally as well. Another 
government action that leads people to live in harm's way is the 
failure to build and price infrastructure so that it is both 
sustainable, and resilient to change. Governments build highways, but 
without a pricing mechanism, no revenue stream is created to allow, for 
example, for the highway to be elevated if local flooding becomes a 
problem. There is also no price signal relayed to the users of the 
highway that reflects the climatic risk that their transportation 
system faces. The same is true of fresh-water, wastewater, electricity, 
and other infrastructure.
    Establishing market pricing of all infrastructures would quickly 
steer people away from climatically fragile areas, dramatically 
reducing the costs of dealing with climate variability.
    Now, as I'm sure people will argue, not everyone can do this. If 
predictions of strong sea-level rise come to pass, low-lying areas, 
many of them in poor countries, will be inundated, potentially leading 
to mass exodus. The same is true if desert areas become sharply dryer.
    Though as I mentioned, I don't believe in predictive modeling, that 
doesn't mean we can't tie up our camel. For that reason, as a third 
effort, I support re-directing government research and development 
spending away from greenhouse gas mitigation technologies and into geo-
engineering, and carbon air-stripping technologies.
    Now, when I've talked about this before, I always get the same 
question, so I'll answer it pre-emptively. What about people who can't 
get away? This is a tough problem. Some have proposed the establishment 
of a climate-change damages trust fund, which would grow over time, and 
be there to pay for relocation of people, the construction of sea-
walls, the building of pipelines for bulk-water transport in the event 
climate calamities come to pass.
    Ideally, such a fund should be paid into by all developed and semi-
developed countries on a fair basis, such as an equal fraction of GDP. 
If climate change is shown to be a non-threat, or a modest one, or some 
cheap ways of removing carbon from the air turn up, those moneys could 
be returned to the tax-payers of the donating countries.
    I have to say, however, that I am not sanguine about such a fund 
for several reasons. First, I doubt that it would be paid into fairly: 
based on their unwillingness to adopt binding emission reduction 
targets, and their demands for wealth transfer from the developed 
countries to the developing, I very much doubt that the semi-developed 
countries will agree to contribute, any more than they are likely to 
agree to binding emission reductions. Second, I am also dubious about 
government's ability (any government) to keep its hands out of the 
funds, rather than spending them today, and replacing them with IOUs, 
as is a common practice in such ``trust funds.'' And third, I am 
concerned that it would simply make the problem worse: the 
establishment of such a trust fund would lead to greater risk-taking 
around the world, with less self-insurance by individuals or 
governments, under the assumption that if anything goes wrong, the 
world will step in to make things all better.
    I'll be glad to take your questions.


    Senator Menendez. Thank you.
    Mr. O'Driscoll?

 STATEMENT OF PETER O'DRISCOLL, EXECUTIVE DIRECTOR, ACTIONAID 
                     USA, WASHINGTON, D.C.

    Mr. O'Driscoll. Thank you, Chairman Menendez, Ranking 
Member, Senator Corker, Senator Shaheen. I would like to thank 
you for the opportunity to comment on how climate change is 
already affecting people in developing countries and on 
measures the United States Senate can take to help address 
their urgent needs.
    ActionAid field work confirms the urgent need for 
adaptation strategies and for significant financial commitments 
to avert catastrophic famine and loss of life from increased 
vulnerability to extreme weather events in the poorest 
countries.
    The good news on climate is that the Government of the 
United States is now fully engaged on the issue. The bad news 
is that the impacts of climate change are already wreaking 
havoc on food production, on poverty eradication programs, and 
on emergency response systems in developing countries.
    And with due respect to my colleague's views on the value 
of predictive studies, there does seem to be a broad consensus 
that the problem is only going to get worse, no matter how much 
progress the Congress or the Copenhagen negotiations make on 
emissions reductions. Temperatures will likely continue to rise 
throughout the century, making the climate consequences worse.
    Therefore, from ActionAid's perspective, there is no viable 
alternative to investing in climate adaptation. Helping people, 
communities, and entire countries face these consequences must 
be a central pillar of U.S. foreign policy.
    Perhaps the cruelest irony of the unfolding climate 
emergency is that those most intensely and immediately affected 
are least responsible for the greenhouse gas emissions that are 
driving global warming.
    The Intergovernmental Panel on Climate Change identifies 
agriculture as a sector particularly vulnerable to climate 
change. 70 percent of the world's extreme poverty is found in 
agricultural areas where subsistence farmers depend on rain for 
their harvests. In some countries in Africa, yields from rain-
fed agriculture could be reduced by up to 50 percent by 2020, 
and in parts of Asia, crop yields could fall by up to 30 
percent by 2050 because of climate change.
    ActionAid's field work shows that decreases in crop 
production are happening already. And since women in the 
developing world are largely responsible for food production 
and provision, the impact of climate change on agriculture also 
means that women, who already constitute the majority of poor 
people, are most adversely affected.
    The voices and experiences of those most affected should be 
considered in the deliberations of policymakers whose decisions 
will have life-or-death implications for them. Therefore, at 
the invitation of the chair, I would like to focus on two women 
farmers with whom ActionAid has worked closely so that we can 
offer some insight into the impacts of climate change in the 
developing world and the kinds of solutions in which we might 
invest on a larger scale to help them adapt.
    I would like to introduce you to Joyce Tembenu from Malawi. 
She is a 38-year-old mother of three and a widow. She works as 
food security officer for the Salima Women's Network on Gender 
and also with the Yamikani Women Farmers Group in Salima, 
Malawi.
    In Malawi, she depends on agriculture for her livelihood. 
She is facing challenges from climate change. Her mother 
remembers a rain cycle much longer than the rain cycle she 
currently experiences. As a result of that shortened rain 
cycle, the local seed varieties do not have time to mature and 
grow. Therefore, during food shortages, farmers are forced to 
turn to hybrid seeds which are more expensive and require more 
expensive inputs, which local farmers simply cannot afford. As 
she puts it, ``We are poor,so we are starving in Malawi.''
    As a woman farmer in Malawi, Joyce's challenges are 
familiar to a huge segment of the population there. Agriculture 
is the main driver of Malawi's economy, contributing up to 39 
percent of GDP and employing 80 percent of the country's labor 
force and more than 90 percent of them rely on rain-fed 
subsistence agriculture.
    Funding agencies must work with farmers to implement 
adaptation programs and governments must play a key role in 
providing a policy framework to guide and support effective 
adaptation strategies.
    I would also like to introduce you to Asiya Begum who lives 
with her mother and two sons in the village of Charipara on the 
river delta in the south of Bangladesh.
    Over the past decade, her river has eroded land and forced 
100 families to find another place to live. As she says, ``Our 
poverty is caused by river erosion; people of two villages are 
now living in one.''
    In 2007, Asiya's family lost all their crops when Cyclone 
Sidr hit Bangladesh. The storm also increased the salinity on 
their land, making it more difficult to grow food. To 
supplement their family's income, Asiya's sons have quit school 
so they can work.
    Asiya volunteered to participate in an ActionAid project 
which involved testing improved rice varieties which have 
succeeded, along with a better irrigation system, fertilizers, 
and insect traps, in nearly doubling crop yields in Charipara. 
So today, Asiya is urging her government and ours to further 
support adaptation to climate change through projects that 
build the resilience of poor communities and improve food 
production.
    Within the concept of the common but differentiated 
responsibility, the United Nations Framework Convention on 
Climate Change, to which the United States is a party, states 
that it is the responsibility of developed nations to ``assist 
the developing country Parties that are particularly vulnerable 
to the adverse effects of climate change in meeting costs of 
adaptation to those adverse effects.''
    The Senate's deliberations on a climate bill and on the 
UNFCCC process through Copenhagen and beyond are crucial 
opportunities to establish both financial commitments and 
financing mechanisms that are effective and accountable to 
people like Joyce Tembenu and Asiya Begum. The Senate can make 
great strides in this direction by focusing on financial 
commitments to the cost of adaptation funding and on enhanced 
financing mechanisms to make sure such funds reach those who 
need them most.
    You have heard a number of estimates already of the annual 
cost of adaptation, but it is fair to say that they range from 
$25 billion to $100 billion per year at least.
    ActionAid encourages the Senate to significantly expand on 
the American Clean Energy and Security Act's commitment to 
funding climate adaptation which starts at only $750 million 
per year. We would like to see that number rise, as Rev. Ball 
suggested, to $7 billion and beyond through 2020.
    Such funds should prioritize agricultural adaptation 
projects that use environmentally and economically sustainable 
techniques. They should also emphasize investment in women 
farmers as well as community participation in project design.
    But a vast increase in funding is only part of the 
solution. Essentially adaptation funding will only be as 
effective as the institutions through which it is channeled. 
Because of our concerns about the World Bank and the Global 
Environmental Facility's governance, their fossil fuel lending, 
and their openness to stakeholder engagement, ActionAid 
endorses the need for an enhanced financial mechanism under the 
authority of the UNFCCC's Conference of Parties with an 
adaptation funding window.
    Thank you very much, Senators, for this opportunity to 
express our views. We are ready to work with you at ActionAid 
as you set about the complex but necessary work of developing 
international climate adaptation policy to help achieve a more 
sustainable and equitable future for people around the world 
like Joyce Tembenu and Asiya Begum. Thank you.


    [The prepared statement of Mr. O'Driscoll follows:]


                Prepared Statement of Peter O'Driscoll, 
                   Executive Director, ActionAid USA

    I would like to thank the Chair, Senator Menendez, the Ranking 
Member Senator Corker, and all the Senators on this Subcommittee, for 
the opportunity to comment on how climate change is already affecting 
people in developing countries, and on measures the United States 
Senate can take to help address their urgent needs.
    ActionAid is an international anti-poverty agency working in 50 
countries, taking sides with poor people to end poverty and injustice 
together. Our approach to climate change is informed by over 35 years 
of experience working alongside poor and excluded people in Africa, 
Asia and Latin America. Climate change has become an institutional 
priority in recent years because of ActionAid's focus on agriculture 
and disaster risk reduction. Our field work has confirmed the urgent 
need for adaptation strategies and for significant financial 
commitments to avert catastrophic famine and loss of life from 
increased vulnerability to extreme weather events in the poorest 
countries.
    The good news on climate is that the government of the United 
States is now focused on the problem. The Obama Administration has 
recognized the need for real negotiations on emissions reductions and 
the transition to a clean energy economy. And after passage of the 
American Clean Energy and Security Act in the House in June, the Senate 
now takes up legislation that could improve the House bill and 
strengthen U.S. contributions to resolving this global challenge.
    But the bad news is that the impacts of climate change are already 
wreaking havoc on food production, poverty eradication programs and 
emergency response systems in developing countries. And no matter how 
much progress the Congress, the President and the international 
negotiators at December's United Nations Framework Convention on 
Climate Change achieve on emissions reductions and clean technologies, 
global temperatures will continue to rise throughout this century, 
making the climate consequences worse.\1\ There is therefore no viable 
alternative to investing in climate adaptation: helping people, 
communities and entire countries face these consequences must be a 
central pillar of U.S. foreign policy.
---------------------------------------------------------------------------
    \1\ A new UNEP report, the ``Climate Change Science Compendium 
2009,'' offers an overview of recent global warming research and 
concludes with increased projections of temperature rises expected by 
2100. Scientific assessments now outstrip worst case scenarios foreseen 
by the Intergovernmental Panel on Climate Change in 2007. See http://
www.unep.org.
---------------------------------------------------------------------------
    1. the poorest people are the most vulnerable to climate impacts
    Perhaps the cruelest irony of the unfolding climate emergency is 
that those most intensely and immediately affected are least 
responsible for the greenhouse gas emissions that are driving global 
warming. The response to climate change can thus be framed as one of 
the gravest equity challenges of the twenty-first century. The eight 
richest countries in the world, which represent just 13 percent of the 
word's population, are responsible for generating over 40 percent of 
the greenhouse gas emissions that cause global warning.
    Although projections suggest that climate impacts will vary 
geographically, analyses by the Food and Agriculture Organization of 
the United Nations (FAO) and the International Institute of Applied 
Systems Analysis (IIASA) have attempted to pinpoint likely regional 
impacts of climate change on agricultural productivity and on food 
security. Their work suggests that, on balance, developing countries 
will lose out due to an increase in arid areas in coming decades:


          The FAO/IIASA study indicates that the developing world would 
        experience an 11% decrease in cultivable rain-fed land, with 
        consequent decline in cereal production. Sixty-five developing 
        countries, representing more than half the developing world's 
        total population in 1995, will lose about 280 million tons of 
        potential cereal production as a result of climate change. This 
        loss, valued at an average of U.S. $200 per ton, totals U.S. 
        $56 billion, equivalent to some 16% of the agricultural gross 
        domestic product of these countries in 1995. Some 29 African 
        countries face an aggregate loss of around 35 million tons in 
        potential cereal production.
          In the case of Asia, the impact of climate change is mixed: 
        India loses 125 million tons, equivalent to 18% of its rain-fed 
        cereal production; China's rain-fed cereal production potential 
        of 360 million tons, on the other hand, increases by 15%. Among 
        the cereals, wheat production potential in the sub-tropics is 
        expected to be the worst affected, with significant declines 
        anticipated in Africa, South Asia, and Latin America.\2\
---------------------------------------------------------------------------
    \2\ FAO and IIASA. Impact of Climate Change, Pests and Diseases on 
Food Security and Poverty Reduction, 31st Session of the Committee on 
World Food Security 23-26 May 2005, FAO, page 2.


    The Intergovernmental Panel on Climate Change (IPCC) also 
identifies agriculture as a sector particularly vulnerable to climate 
change. Seventy per cent of the world's extreme poverty is found in 
agricultural areas\3\ where subsistence farmers depend on rain for 
their harvests. In some countries in Africa, yields from rain-fed 
agriculture could be reduced by up to 50 percent by 2020,\4\ and in 
Central and South Asia, crop yields could fall by up to 30 percent by 
2050 \5\ because of climate change.
---------------------------------------------------------------------------
    \3\ http://www.fao.org.
    \4\ IPCC (2007): Summary for Policymakers. Climate Change 2007: 
Impacts, Adaptation and Vulnerability. Contribution of Working Group II 
to the Fourth Assessment Report of the Intergovernmental Panel on 
Climate Change, M.L. Parry, O.F. Canziani, J.P. Palutikof, P.J. van der 
Linden and C.E. Hanson, Eds., Cambridge University Press, Cambridge, 
UK, 7-22.
    \5\ Prioritizing Climate Change Adaptation Needs for Food Security 
in 2030. David B. Lobell, Marshall B. Burke, Claudia Tebaldi, Michael 
D. Mastrandrea, Walter P. Falcon, Rosamond L. Naylor, Science, 1 
February 2008: Vol. 319. no. 5863, pp. 607-610. DOI: 10.1126/science. 
1152339.
---------------------------------------------------------------------------
    Further to these official statistics, participatory vulnerability 
analyses (PVA) conducted by ActionAid have revealed that poor and 
excluded people themselves identify loss of crops due to climate change 
as a key factor increasing their vulnerability.\6\ ActionAid's field 
work shows that decreases in crop production are happening already. And 
to add to the stress of decreasing yields, poor people in developing 
countries (who typically spend 50-80 per cent of their income on food) 
\7\ have been doubly hit by recent volatility in food prices. While 
commodity prices began to decline in late 2008, many of the factors 
that led to high prices are still in place. This volatility, compounded 
by increasing climate variability, will therefore likely continue to be 
a serious problem for the foreseeable future.
---------------------------------------------------------------------------
    \6\ International Institute for Applied Systems Analysis. Fischer, 
Gunther; Shah, Mahendra; Van Velthuizen, Harrij; and Nachtergaele, 
Freddy O. Global Agro-ecological Assessment for Agriculture in the 21st 
Century
    \7\ International Food Policy Research Institute. High Food Prices: 
the What, Who, and How of Proposed Policy Actions. Policy brief: May 
2008.
---------------------------------------------------------------------------
    Since women in the developing world are largely responsible for 
food production and provision, the impact of climate change on 
agriculture also means that women--who already constitute the majority 
of poor people--are most adversely affected. Women depend more than men 
on the fragile ecosystems that are threatened by climate change, yet 
lack adequate access to and control over the natural resources, 
technologies, and credit they need to produce food. As a result, they 
are more vulnerable to seasonal and episodic weather variations, and to 
natural disasters resulting from climate change.
    The voices and experiences of those most affected must be 
considered in the deliberations of policy makers whose decisions will 
have life-or-death implications for them. In this testimony I would 
like to focus on two women farmers with whom ActionAid has worked 
closely in recent years. I hope that through their reflections on 
climate change in Malawi and Bangladesh, the Subcommittee might gain 
new insight into impacts of climate change in the developing world, and 
into the kinds of solutions in which we might invest on a larger scale 
to help them adapt.
                        2. malawi: joyce tembenu
    My name is Joyce Tembenu. I am 38 years old, the mother of three 
children, and a widow. I am the food security Officer of Salima Women's 
Network on Gender (SAWEG) and a member of Yamikani Women Farmers Group 
in the SALIMA district of Malawi in Southern Africa. With SAWEG, I work 
on issues of climate change adaptation, women's rights, and HIV and 
AIDS.
    As you may know, Malawi is an agriculturalist society. We depend on 
agriculture for our livelihood. But we are being challenged by climate 
change. I am a farmer. My mother was a farmer. For my mother, the rains 
used to come from October until April. This would give our local 
indigenous varieties of seeds time to mature and grow. And we would 
have food on the table and for the market. Today, because of climate 
change, the rains come in December and end in March. Our local 
varieties do not have time to mature. We are forced to buy hybrid 
crops, which are much more input-intensive, and we cannot afford these 
inputs. We are poor. So we are starving in Malawi.
    Because of Climate Change we see:


   An increased frequency and intensity of floods and droughts which 
        causes death of people, food crops, and animals.

   Houses, toilets, crops and household items collapse and are carried 
        away by running water.

   Increased cases of water borne diseases, such as malaria, cholera, 
        dysentery.

   Women engaged in unsafe sex just to buy food for their families. 
        And girls as young as 13 years old are forced to get married, 
        exposing them to greater risks of HIV and AIDS.

   Migration of men to urban areas in search of work, leaving women 
        with extended families and the burden of feeding children whose 
        parents have died of HIV and AIDS.


    As a woman farmer in Malawi, Joyce's challenges are familiar to a 
huge segment of the population there. Agriculture is the main driver of 
Malawi's economy, contributing up to 39 per cent of GDP and employing 
80 per cent of the country's labor force. About 6.3 million Malawians 
live below the poverty line, the majority in rural areas. More than 90 
per cent of them rely on rain-fed subsistence farming to survive. 
Climate change and weather extremes are having a huge impact on the 
country's agriculture sector, affecting productivity and therefore 
resulting in food shortages and chronic hunger. Crop losses related to 
natural disasters, such as drought and flash floods, as well as crop 
failure due to erratic and unpredictable rainfall, pose a great danger 
to food security, especially for poor and marginalized communities.
    Vulnerability and adaptation studies undertaken in Malawi predict 
that temperatures are likely to increase by 1 C, 2 C and 4 C for the 
years 2020, 2075 and 2100 respectively, and that rainfall will increase 
by up to 8 per cent by the year 2100.\8\ In these circumstances, the 
number and intensity of drought and floods will increase, with a 
negative impact on food production. If nothing is done to support poor 
and marginalized communities, their right to food will be severely 
undermined. Women, who represent the majority of full-time farmers, 
will be particularly adversely affected.
---------------------------------------------------------------------------
    \8\ Environmental Affairs Dept. (2005). National Adaptation 
Programmes of Action (NAPA). Government Press, Zomba. Environmental 
Affairs Dept. (2008). Malawi's Second National Communication to the 
UNFCCC. Government Press, Zomba.
---------------------------------------------------------------------------
    Rainfall data from 1990 to date shows that the Districts like 
Salima, where Joyce is from, have been subjected to climate change and 
weather extremes in most years. There were recorded droughts in Salima 
during the 1994-95, 1999-2000, 2001-02 and 2004-05 seasons, which 
resulted in total annual rainfall of less than 800mm, hardly enough to 
sustain crop production. Salima was also subjected to floods during the 
1997-98, 2002-03 and 2005-06 seasons, causing losses of property; 
destruction of infrastructure; siltation of rivers; destruction of 
crops such as maize, sorghum, millet and rice; diseases like malaria 
and cholera; and malnutrition and hunger.
    Climate-related hazards have a significant impact on human health. 
During years of drought, malnutrition becomes a major issue, especially 
amongst children and the elderly. Any fluctuation in climate leading to 
adverse weather conditions is likely to lead to significant 
malnutrition problems among the population as less food is consumed. 
Children, breastfeeding mothers, pregnant women, female-headed 
households and orphans are among the most vulnerable.
    The dependence of Malawi's agricultural sector on the climate 
cannot be over-emphasized. Most of the crops and livestock are grown 
under rain-fed conditions; therefore any drought or flood has a direct 
impact on productivity and may result in country-wide food deficits and 
hunger, especially among small-holders, the most vulnerable groups. The 
increased severity of floods means increased risks of ruined crops, 
killed or injured livestock as well as submerged and destroyed 
infrastructure (roads, footpaths and buildings). People from Mbangu 
Village, for example, have suffered from floods that have caused 
extensive and severe damage to their assets and livelihood. They have 
also observed that the frequency and severity of the floods have 
increased over the last decade.
    The drought experienced in the 2001-02 season resulted in low crop 
yields and a food deficit of 570,000 tons. More than 3.2 million people 
were affected and the World Food Program (WFP) spent $87.5 million on 
emergency food aid, while the Malawian Government spent an additional 
$67.4 million. Some elementary schools had to close down due to the 
hunger crisis, and a large number of children suffered from kwashiorkor 
(a dietary deficiency disease). Most people started eating wild fruits, 
roots and tubers and indigenous vegetables, while at the same time 
eating and harvesting premature maize to avert hunger.
    In order to become more resilient to climate change, communities 
and households attempt to diversify their agricultural production and 
to intensify activities they can carry out when the weather is 
favorable. Communities have also begun to embrace methods to improve 
soil fertility, using organic manure instead of chemical fertilizers. 
In Salima, for example, farmers use the ``chimato'' system where 
vegetative material is composted in special mud structures. The 
cultivation of winter crops using the residual soil moisture from river 
banks or flooded areas is also a way to cope. Farming communities 
living along rivers, the lakeshore and the Shire valley are 
successfully adapting to changing climatic conditions by growing a 
second crop of maize that is planted at the end of the rains in March 
and is harvested in winter.
    As part of the adaptation programs, many clubs and communities from 
Malawi are engaging in activities to diversify their livelihood. In 
many cases, women are leading in this effort. For example, the Salima 
Women's Network on Gender (SAWEG), of which Joyce Tembenu is food 
security officer, has started various income-generating activities in 
order to empower themselves economically. Women and girls in Salima 
realized that in times of hunger they were vulnerable because their 
husbands often controlled the money they would need to buy more food. 
Now women are involved in various activities such as selling cakes and 
scones (``zitumbuwa''), brewing beer, making traditional pots or 
weaving baskets.
    Small-holder farmers produce about 80 per cent of Malawi's food. 
Most of them are poor and depend on rain-fed agriculture, so they lack 
resources to adapt to climate change sufficiently. There is a need for 
concerted efforts from funding agencies to assist the farmers to 
implement adaptation programs. Governments must play a key role in 
providing a policy framework to guide and support effective adaptation 
strategies for individuals and communities. Some key recommendations 
from ActionAid partners include the need for:


   High-quality climate information and tools for risk management that 
        help to improve climate predictions. These will be critical, 
        particularly for rainfall and storm patterns.

   Land-use planning and performance standards that encourage both 
        private and public investment in buildings and other long-term 
        infrastructure to take into account the vulnerability of 
        different elements in the community systems.

   Governments that can contribute through long-term policies for 
        natural resources protection and emergency preparedness.

   A financial safety net. This may be required for the poorest people 
        who are often most vulnerable to the impacts of climate change 
        and least able to afford protection.


    The case of Malawi illustrates how women are leading adaptation 
efforts in their communities. For adaptation to be effective, funding 
must therefore support women's efforts to reduce their vulnerability to 
the impacts of climate change, and build their capacity to become 
leaders in their communities.
                       3. bangladesh: asiya begum
    Asiya Begum, a widow, lives with her elderly mother and two sons in 
the village of Charipara located on the river delta on Bangladesh's 
southern tip. Over the past decade, the river has eroded land and 
forced one hundred families to find another place to live. ``Our 
poverty is caused by river erosion; people of two villages are now 
living in one,'' says Asiya. In 2007, Asiya's family lost all their 
crops when Cyclone Sidr hit Bangladesh. The storm also increased the 
salinity of their land, making it more difficult to grow food. To 
supplement their family's income, Asiya's sons Mohibur (14) and Habibur 
(12) have quit school so that they can work.
    Because of the impacts climate change is having on communities like 
Charipara, ActionAid is working in Bangladesh to help poor people adapt 
to changing weather patterns. In Asiya's village, the community 
identified declining food production as one of their greatest 
struggles, and decided to try new seed varieties and farming methods to 
produce better yields.
    Asiya volunteered to participate in an ActionAid project in which 
the Bangladesh Rice Research Institute in Dhaka provided farmers with 
three seed varieties to test, and taught them how to use the seeds to 
produce better yields. ``Now we are doing Boro (a variety of rice) 
cultivation, which was not practiced in this village,'' says Asiya. 
``We are going to harvest the rice in a few days, and we never had rice 
during this time of year. With the help of the project our poverty is 
getting reduced.'' The new seeds, a better irrigation system, 
fertilizers and insect traps have nearly doubled crop yields in 
Charipara. ``We couldn't have vegetables before,'' Asiya adds. ``Now 
with ActionAid's support, we can even sell them. From every aspect, 
things are now getting better.''
    Today, Asiya is urging her government and other agencies to further 
support adaptation to climate change through projects that build the 
resilience of poor communities and improve food production. The 
challenges she faces are typical for many in her country. With a 
population of about 140 million living in an area covering 144,000 
km\2\, Bangladesh is one of the most densely populated countries in the 
world.\9\ More than 75 per cent of its people live in rural areas and 
agriculture represented nearly 20 per cent of the country's GDP in 
2006.\10\
---------------------------------------------------------------------------
    \9\ Bangladesh Bureau of Statistics (2006).
    \10\ Ibid.
---------------------------------------------------------------------------
    People living near the rivers of Bangladesh and the Bay of Bengal 
are used to floods. In the past, yearly floods even contributed to 
agriculture by bringing moisture and nutrients to the soil. Nowadays, 
however, the intensity and severity of floods has sharply increased. 
Most climate models predict that 17 per cent of the total area of 
Bangladesh along the coastal belt may be under water by the end of the 
twenty-first century due to rising sea levels. This will increase 
salinity intrusion, which is already having a negative effect on soil 
fertility. Seasonal droughts in the northwestern region of Bangladesh 
are also causing serious damage to crops and food shortages. Extreme 
weather events put a huge strain on the country's economy, 
infrastructure and social systems. They bring with them loss of lives, 
destruction of houses and public buildings, disruption of education and 
loss of assets and livelihoods. Their intensification will have a 
disastrous effect on poor people.
    While disasters and food insecurity induced by climate change 
affect both women and men in Bangladesh, the burden of coping with 
disasters falls heavily on women's shoulders. The division of labor 
between men and women becomes critical, as disasters bring additional 
work and changes in environment that often reinforce and even intensify 
gender inequity. Because women are culturally perceived as having a 
lower social status, they suffer more than men from poverty, hunger, 
malnutrition, economic crises, environmental degradation, health-
related problems and insecurity. ActionAid's field work shows that 
women are often forced to sell their assets, such as hens, chickens or 
goats, in order to feed their families, and when food support is 
insufficient to feed all family members, women are generally the ones 
who do not eat.
    Climatic events such as changes in rainfall patterns, floods, 
storms, river bank erosion, salinity intrusion and drought have 
exacerbated the problems faced by Bangladesh's agricultural sector and 
increased the risks of food shortages. Cyclones also prevent fishermen 
from going to the coast or the rivers to bring back fish or crabs. 
Researchers from the Asian Disaster Preparedness Centre (ADPC) and the 
FAO have pointed out that agriculture in Bangladesh ``is already under 
pressure from increasing demands for food and the parallel problems of 
depletion of agricultural land and water resources from overuse and 
contamination. Climate variability and projected global climate change 
makes the issue particularly urgent.\11\
---------------------------------------------------------------------------
    \11\ R. Selvaraju et al. Livelihood Adaptation to Climate 
Variability and Change in Drought Prone Areas of Bangladesh, ADPC, FAO, 
2006.
---------------------------------------------------------------------------
    The associated decline in crop production, loss of assets and 
reduced employment opportunities contribute to household food 
insecurity. Food consumption falls, along with the ability of 
households to meet their nutritional needs on a sustainable basis. 
Vegetables and roots are in short supply during natural hazards. Acute 
shortage of pure drinking water makes the situation even more critical, 
as most women from rural areas have to carry water over long distances.
    In Bangladesh, many communities are doing what they can merely to 
cope with the impacts of climate change. For example, farmers have 
started to change the way they cultivate their land; some of them raise 
the bed of their vegetable fields, while others are modifying their 
cropping patterns, harvesting water from canals and ponds, improving 
soil moisture retention through mulching, and increasing the amount of 
organic matter in their soil. In rural areas of Sirajganj district 
(where feeding animals can be highly problematic in times of hardship) 
farmers are now preserving fodder for their cattle. And in areas where 
water logging is a common problem, farmers are practicing hydroponic 
agriculture for vegetable production. In south-west Bangladesh it is 
becoming a popular adaptation strategy that increases households' food 
security.
    In some rural areas, women also dry food in order to preserve it 
for the lean season. This practice is gaining increasing attention and 
has started to spread among poor households. Kitchen gardening by women 
also makes a contribution to household nutrition. It increases their 
resilience as well, since vegetable surpluses can be sold to provide 
extra income to the family and seeds can be dried.
    The needs of Bangladesh's people are clearly overwhelming their 
ability to cope, much less to truly adapt to the mounting impacts of 
climate change. The damage from Cyclone Sidr (which lasted only one 
night) is estimated at up to $4 billion. Given the increasing intensity 
and frequency of floods, cyclones and other extreme weather events, the 
amount of money that the country will need to adapt to these changing 
conditions is immense. However, money alone is not sufficient to 
respond to the needs. Knowledge and skills are also crucial to ensure 
that money is used effectively and in a manner that really addresses 
the needs of the most vulnerable groups.
    While spontaneous and ingenious efforts to cope with the adverse 
impacts of climate change are noticeable at community and household 
levels, limited resources and capacities often hinder these 
initiatives. Changing planting dates and seed varieties, for example, 
could help to offset losses and increase yields--if people had access 
to the information, credit and seeds they would need to implement those 
changes. Climate change also has implications for justice and equity: 
poor households and small-holder farmers are more affected, yet support 
does not necessarily reach them. More attention to these questions is 
therefore needed.
     4. recommendations for united states climate adaptation policy
    Within the concept of ``common but differentiated responsibility,'' 
the United Nations Framework Convention on Climate Change (UNFCCC), to 
which the United States is a Party, states that it is the 
responsibility of developed nations to ``assist the developing country 
Parties that are particularly vulnerable to the adverse effects of 
climate change in meeting costs of adaptation to those adverse 
effects.''\12\ Although communities are already taking steps to adapt 
to climate change, their efforts will require a significant infusion of 
new resources to avoid the most disastrous consequences forecast by the 
IPCC. Rich countries, which are historically responsible for generating 
the lion's share of the greenhouse gases that cause climate change, 
should now provide the necessary funds to enable poor countries to 
adapt.
---------------------------------------------------------------------------
    \12\ UNFCCC at http://unfccc.int/resource/docs/convkp/conveng.pdf
---------------------------------------------------------------------------
    Developing nations highly dependent on agriculture are especially 
vulnerable to the impacts of climate change on food production. It is 
therefore critical that U.S. legislation and the post-2012 
international climate negotiations in Copenhagen protect the right to 
food by promoting measures to support small-holder farmers and the 
sustainable agriculture approaches they are embracing to combat the 
impacts of climate change. This support must include concrete financial 
contributions and the establishment of governance mechanisms for 
adaptation funds that are effective and accountable to people like 
Joyce Tembenu and Asiya Begum.
    On the basis of consultations with community partners around the 
world, ActionAid sees the Senate's deliberations on a climate bill and 
the UNFCCC process through Copenhagen and beyond as crucial 
opportunities to link the global response to the climate emergency to 
the concrete needs of those most affected by and least responsible for 
the crisis. The Senate should therefore assure that:
a) There are substantial additional financial resources to fund climate 
        change adaptation.
    The absolute level of resources needed to adapt to the impacts of 
climate change remains a matter for debate, in part because too few 
formal adaptation projects and programs have been completed to provide 
an accurate assessment. The UNFCCC estimates that between $28-67 
billion will be needed annually by 2030 to help developing countries 
adapt. The 2007-08 UN Human Development Report estimates that $86 
billion will needed annually by 2015. And the World Bank now estimates 
that $75-100 billion will be needed annually between 2010 and 2050.\13\ 
If significant emissions reductions are not achieved in the short term, 
these figures will only increase as rising global temperatures generate 
worsening impacts.
---------------------------------------------------------------------------
    \13\ http://siteresources.worldbank.org/INTCC/Resources/
EACCFinalRelease.pdf
---------------------------------------------------------------------------
    Though these estimates may vary, it remains clear that the cost of 
adapting to climate change will be enormous. Developed countries may 
dismiss the need to generate $86 billion per year as unrealistic, or 
point to fiscal deficits and the impact of the 2008 global financial 
crisis on their capacity to respond. But the fact remains that they are 
bound by the framework convention to respond to the adaptation needs 
described in this testimony, and that they can use a variety of 
innovative mechanisms to generate new and additional adaptation 
funding. ActionAid calls on the Senate to take on this challenge with 
the degree of political commitment it will require. In that vein, 
ActionAid encourages the Senate to significantly expand on the American 
Clean Energy and Security Act's commitment to funding climate 
adaptation, which starts at approximately $750 million per year in 
2012. The goal for the U.S. ought eventually to reach $30 billion per 
year for climate adaptation, to be generated through a variety of 
mechanisms.
b) Adaptation funds must be governed in a transparent and accountable 
        manner.
    A vast increase in funding is only part of the solution to the 
developing world's adaptation needs. Even if developed countries were 
to announce massive new financial pledges tomorrow, how that funding is 
disbursed, managed and governed would determine whether it would truly 
meet the needs of poor and excluded communities. Essentially, 
adaptation funding will only be as effective as the institutions 
through which it is channeled. ActionAid has identified a core set of 
principles by which any adaptation funding mechanism should be 
assessed.\14\ Such mechanisms should:
---------------------------------------------------------------------------
    \14\ These principles were established in ActionAid's 2007 report, 
Compensating for Climate Change: Principles and Lessons for Equitable 
Adaptation Finance. See http://actionaidusa.org


---------------------------------------------------------------------------
  1. Demonstrate a broadly representative governance structure;

  2. Ensure the participation of affected communities;

  3. Provide sustainable and compensatory funding streams;

  4. Avoid the imposition of economic policy conditionality; and

  5. Create streamlined access for countries seeking funds.


    There are currently two multilateral institutions primarily 
involved in adaptation finance: the World Bank, which manages the Pilot 
Program on Climate Resilience; and the Global Environment Facility 
(GEF), which manages the Least Developed Countries Fund. ActionAid's 
analysis of these funds and, in particular, their managing 
institutions, demonstrates the need for new approaches to the 
governance of climate adaptation funds.
    The World Bank's role in climate finance must be challenged for a 
number of reasons. Its governance structure does not allow developing 
countries sufficient voice in how the institution is managed or how 
funds are disbursed. The World Bank has a poor track record in engaging 
affected communities and civil society in its work. The Independent 
Evaluation Group of the World Bank estimates that in 2003, 75% of World 
Bank projects did not involve community participation.\15\ Moreover, 
even as the World Bank is positioning itself as a major player in the 
response to climate change, it is worsening the problem through its 
fossil fuel lending. From 2006-08, coal lending at the World Bank Group 
increased by 648%, and in 2008 fossil fuel funding more than 
doubled.\16\
---------------------------------------------------------------------------
    \15\ Independent Evaluation Group. World Bank Support for 
Community-Based-and-Driven Development. Overview. http://
web.worldbank.org.
    \16\ Bank Information Center. World Bank Energy Sector Lending: 
Encouraging the World's Addiction to Fossil Fuels. February 2009. 
http://www.bicusa.org.
---------------------------------------------------------------------------
    There are also significant concerns about the GEF's role as an 
operating entity for the UNFCCC's financial mechanism. These relate to 
its governance structure (which weights votes according to financial 
contribution) and the lack of access to funding for the most vulnerable 
countries and communities. Because of these and other concerns, 
ActionAid endorses the need for an enhanced financial mechanism under 
the authority of and accountable to the UNFCCC's Conference of Parties 
(COP), with an adaptation funding window.
    The basic structure of this enhanced mechanism would include a 
board, appointed by and accountable to the COP, called the Executive 
Body (EB). It would establish and coordinate funding windows for areas 
such as climate adaptation, mitigation, reducing emissions from 
deforestation and degradation (REDD), and technology development, 
disbursement, and diffusion. The EB would be serviced by a secretariat 
and a trustee. Each funding window would be advised by a technical 
assessment panel. Other key structures could include National Multi-
stakeholder Committees, a Women's Rights Desk, and a Monitoring and 
Evaluation Panel.\17\
---------------------------------------------------------------------------
    \17\ For a full description for ActionAid's proposed enhanced 
mechanism, see ActionAid, ``Equitable Adaptation Finance: The Case for 
an Enhanced Funding Mechanism Under the UN Framework Convention on 
Climate Change'' at http://www.actionaidusa.org
---------------------------------------------------------------------------
c) Agriculture must be recognized as a sector that is particularly 
        vulnerable to climate change.
    The United States should ensure adequate funding for adaptation 
strategies based on sustainable agricultural techniques that allow 
communities to combat hunger and realize their right to food. Given the 
particular impact that climate change has on agriculture, the 
Copenhagen outcome should recognize the responsibility of the 
international community and national governments to enhance the food 
security of vulnerable people. Furthermore, a significant portion of 
adaptation funding should be specifically dedicated to promote 
sustainable agriculture practices in the developing world. Such 
programs should build on the examples of adaptation strategies that 
have already increased food security. And in the face of such 
significant outstanding need, substantial adaptation funding should:


   Enhance farmers' ability to respond quickly and effectively to 
        shocks in order to maintain food production, even under rapidly 
        changing climatic conditions;

   Advance farmers' capacity to use organic matter and to employ 
        multiple cropping strategies and livestock production systems 
        that will enhance soil quality, increase food security and 
        reduce exposure to climate shocks;

   Support innovative practices, especially farmer-controlled methods 
        of agriculture based on local knowledge and traditional 
        practices that reduce farmers' dependence on synthetic inputs 
        and imports, in line with the recommendations of the 2008 
        International Agricultural Assessment of Science and Technology 
        for Development;\18\
---------------------------------------------------------------------------
    \18\ see http://www.agassessment.org.

   Support community-level organization--especially of women--to 
        implement creative solutions and hold duty-bearers accountable 
        to implement policies that ensure their access to and control 
---------------------------------------------------------------------------
        over natural and productive resources.

d) Climate adaptation measures must ensure the effective participation 
        of poor and excluded communities.
    Many poor communities have been adapting to climate change for some 
time now, and already have ideas for adaptation strategies appropriate 
to their specific context. U.S. adaptation programs and the adaptation 
financing mechanisms negotiated through the UNFCCC must increase the 
participation of the most vulnerable groups in decision-making around 
how adaptation funds are disbursed, managed, used, monitored and 
evaluated. Furthermore, representatives of affected communities must be 
meaningfully involved in the governance of multilateral adaptation 
funds to enhance their effectiveness through transparency, 
accountability and stakeholder participation.
e) Climate adaptation measures must support women's efforts to claim 
        their rights.
    Poor women are particularly vulnerable to the impacts of climate 
change, but are also potential leaders of change and innovation with 
respect to adaptation. Women must be acknowledged as a vulnerable 
social group in the Copenhagen outcome, and adaptation funding must be 
specifically directed towards addressing women's needs.
    ActionAid thanks the Subcommittee on International Development and 
Foreign Assistance, Economic Affairs, and International Environmental 
Protection for the opportunity to express these views today. We stand 
ready to share the perspectives and experiences of our partners around 
the world as you set about the complex but necessary work of developing 
international climate adaptation policy to help achieve a more 
sustainable and equitable future for people around the world like Joyce 
Tembenu and Asiya Begum.


    Senator Menendez. Thank you.
    General Wald?

  STATEMENT OF GENERAL CHARLES F. WALD, (USAF, RET.), FORMER 
 DEPUTY COMMANDER OF UNITED STATES EUROPEAN COMMAND; DIRECTOR 
 AND SENIOR ADVISOR, AEROSPACE AND DEFENSE INDUSTRY, DELOITTE; 
                        WASHINGTON, D.C.

    General Wald. Thank you, Chairman, Senators. Appreciate the 
opportunity to testify today on behalf of the Center for Naval 
Analysis.
    A question I think a lot of people would ask is why are a 
group of 11 military retired general officers and admirals 
focusing on climate change. We asked ourselves that 2 years ago 
when we started the project as well. And I think we came into 
the project from different angles and different probably 
backgrounds and probably different levels of belief of this 
being a problem. But by the end of the year, there was 
consensus among the 11 of us. All have been in command at 
various places in the world, to include Africa, Central 
Command, which is basically where most of our activity today in 
the world is militarily, as well as the Pacific, and chiefs of 
staff of the military.
    At the end of the project, we all agreed that climate 
change, as was depicted to us and as we studied, is now and 
will be more increasingly a national security threat to the 
United States and our allies.
    The study, National Security and the Threat of Climate 
Change, came out in 2007. I would commend reading it. It is 
interesting, I think, not because we wrote it, but it is kind 
of a different approach.
    We found four findings and five recommendations from the 
project.
    The first finding was that we projected that climate change 
does pose a serious threat to the American national security. 
In my last job as European Command Deputy, we also had Africa 
in our region at that time. It has subsequently become a 
separate command. I spent a lot of time in Africa. I looked at 
the chart that was shown by David. It was pretty telling I 
think. As a matter of fact, all those circled areas I spent 
time in. Unless you go there and see it, it is hard to imagine 
just what it is really like. And I know you have traveled a lot 
and have seen it.
    But places like Lagos, Nigeria, for example, which the 
first time I arrived there, to me it looked like a Mad Max 
movie, literally. There were 17 million people there in abject 
poverty. The United States Marine Corps this year did a study 
on what they think the world will look like in 2025 so they can 
start projecting their acquisition costs for what the 
environment will be. They think Lagos in 2025 will be 40 
million people, mostly living in slum areas, which is basically 
a recipe for extremism. It is a good place for terrorism to 
actually breed. It is a good breeding ground for recruitment. 
And we have seen that around the world in places that are 
basically unstable or fragile.
    The second finding was that climate change is actually a 
threat multiplier, which is interesting. I mean, historically, 
as was mentioned earlier, the United States is going to respond 
particularly with military to natural disasters or manmade 
disasters, either one. You see during the tsunamis or during 
earthquakes, the U.S. military is usually the first one on the 
scene. In 1996, there were two consecutive typhoons on the 
eastern coast of Africa that caused Mozambique to totally flood 
as a nation. That is a huge nation. The only people that were 
able to respond because of our equipment was the United States 
military. And there are figures that say we probably saved 
250,000 people by evacuating them from flooded areas. That will 
become more common.
    Last week I was in Germany--or I should say Brussels, and 
there has been an international military advisory board started 
to look at this from an international standpoint. And the 
representative from Bangladesh tells me that if they have a 3-
foot ocean rise, which is predicted, that 30 million 
Bangladeshis will be displaced, mostly into India. India today 
is starting to build a fence along the Bangladeshi/Indian 
border. You can just imagine the conflict.
    Third, climate change will add to the tensions even in 
stable regions of the world. And a lot of people like to say 
that climate change is kind of a zero sum game where there will 
be winners and losers. I think that is probably a bad 
statement. I think everybody is going to lose in this somewhat. 
There will be lesser losers, but we are going to lose somewhat. 
So we are going to have to start predicting what that will 
cost.
    Now, yesterday I was told that if we send whatever the 
number is--but per thousand troops we are going to send to 
Afghanistan, which we probably will I think, additionally it is 
$1 billion per thousand troops per year. Now, that counts for 
deployment anyplace of troops. So it is going to cost a lot of 
money.
    And then lastly, climate change, energy security, and 
national security are basically a Venn diagram. They are all 
connected. And for those who do not believe in climate change 
or do not think it is a problem, they should believe that 
energy security is a problem for us. And if we address energy 
security in the proper way, we are probably going to address 
climate too. So it is a win-win, if you look at it that way.
    What we recommended is that we, the United States military, 
start putting climate change in our national security planning; 
that we, the United States, demonstrate leadership in the 
world. In my travels around the world, it is very apparent that 
hardly anything major in the world is ever going to happen 
without U.S. leadership, and the world is begging for that. We 
need to develop global partnerships in this effort.
    DOD, in this case, now should accelerate our planning in 
the acquisition area for addressing this and the United States 
Navy, this Chief of Naval Operations, Admiral Roughead, has 
sanctioned a group that I am a part of through the National 
Academy of Sciences to study what the Navy should do 
acquisition-wise to address the impending consequences of 
climate change. The reason that is important, I think, is 
because most of the systems we acquire today will be with us 
30-40 years from now.
    And then lastly, that the United States military should 
start looking at their installation efficiency and climate 
footprint and carbon footprint at their installations.
    So I thank you for the time and look forward to the 
questions. Thank you.


    [The prepared statement of General Wald follows:]

      Prepared Statement of General Charles F. Wald, USAF, Retired

    Mr. Chairman, Members of the Committee, Ladies and Gentlemen, it is 
an honor to appear before you today to discuss the critically important 
matter of climate change and its implications for U.S. foreign policy. 
Thank you for the opportunity to share my views, which are based on 35 
years of service in the United States Air Force.
    In my final assignment, I served as the Deputy Commander of United 
States European Command. Over the past three years, I have had the 
privilege of serving with some of our nation's most distinguished and 
senior retired military leaders on the CNA Military Advisory Board. I 
would like to take this opportunity to summarize, briefly, the findings 
of the Board's work as they relate to the committee's deliberations.
    CNA's Military Advisory Board has produced two reports: the first, 
released in April, 2007, examining the national security threats of 
climate change, and the second, released in May of this year, which 
analyzed the national security threats of America's current and future 
energy posture.
    Our first report, National Security and the Threat of Climate 
Change, concluded that climate change poses a ``serious threat to 
America's national security,'' acting as a ``threat multiplier for 
instability" in some of the world's most volatile regions, adding 
tension to stable regions, worsening terrorism and potentially dragging 
the United States into conflicts over water and other critical resource 
shortages.
    On the most basic level, climate change has the potential to create 
sustained natural and humanitarian disasters on a scale and at a 
frequency far beyond those we see today. The consequences of these 
disasters will likely foster political instability where societal 
demands for the essentials of life exceed the capacity of governments 
to cope.
    Other findings of our National Security and the Threat of Climate 
Change report include:


   Reduced Access to Fresh Water. Adequate supplies of fresh water for 
        drinking, irrigation, and sanitation are the most basic 
        prerequisite for human habitation. Changes in rainfall, 
        snowfall, snowmelt, and glacial melt have significant effects 
        on fresh water supplies, and climate change is likely to affect 
        all of those things. In some areas of the Middle East, tensions 
        over water already exist

   Impaired Food Production. Access to vital resources, primarily food 
        and water, can be an additional causative factor of conflicts, 
        a number of which are playing out today in Africa. Probably the 
        best known is the conflict in Darfur between herders and 
        farmers. Long periods of drought resulted in the loss of both 
        farmland and grazing land to the desert. The failure of their 
        grazing lands compelled the nomads to migrate southward in 
        search of water and herding ground, and that in turn led to 
        conflict with the farming tribes occupying those lands. Coupled 
        with population growth, tribal, ethnic, and religious 
        differences, the competition for land turned violent. I believe 
        this shows how lack of essential resources threatens not only 
        individuals and their communities, but also the region and the 
        international community at large.

   Land Loss and Flooding. Displacement of Major Populations. About 
        two-thirds of the world's population lives near coastlines, 
        where critically important facilities and infrastructure, such 
        as transportation routes, industrial facilities, port 
        facilities, and energy production and distribution facilities 
        are located. A rise in sea level means potential loss of land 
        and displacement of large numbers of people. Rising sea levels 
        will also make coastal areas more vulnerable to flooding and 
        land loss through erosion. Furthermore, most of the 
        economically important major rivers and river deltas in the 
        world-the Niger, the Mekong, the Yangtze, the Ganges, the Nile, 
        the Rhine, and the Mississippi-are densely populated along 
        their banks. As sea levels rise and storm surges increase, 
        saline water can contaminate groundwater, inundate river deltas 
        and valleys, and destroy croplands.

   Mass Migrations Add to Global Tensions. Some migrations cross 
        international borders. Environmental degradation can fuel 
        migrations in less developed countries, and these migrations 
        can lead to international political conflict. For example, the 
        large migration from Bangladesh to India in the second half of 
        the last century was due largely to loss of arable land, among 
        other environmental factors.

   Potential Escalation of Conflicts over Resources. To live in 
        stability, human societies need access to certain fundamental 
        resources, the most important of which are water and food. The 
        lack, or mismanagement, of these resources can undercut the 
        stability of local populations; it can affect regions on a 
        national or international scale.


    Since the CNA Military Advisory Board's April 2007 report was 
published, a National Intelligence Assessment on global climate change 
confirmed our findings. And the most recent scientific evidence reveals 
that climate change is occurring at a much faster pace than originally 
believed. The Arctic is a case in point. New evidence and analysis 
suggests that the Arctic could be substantially ice-free in the summer 
within in as few as 30 years, not at the end of the century as 
previously expected.
    Some may look at this changing analysis as a reason, or an excuse, 
for delay. We believe that would be the wrong path.
    As military professionals, we were trained to make decisions in 
situations defined by ambiguous information and little concrete 
knowledge of the enemy intent. We based our decisions on trends, 
experience, and judgment, because waiting for 100% certainty during a 
crisis can be disastrous, especially one with the huge national 
security consequences of climate change. And in the case of climate 
change, the trends are clear: the global environment is changing.
    In thinking about the best ways to deal with this growing threat, 
we need to keep clearly in mind the close relationship among the major 
challenges we're facing.
    Energy, security, economics, and climate change - these are all 
connected. It is a system of systems that is very complex. And we need 
to think of it in that way and not simply address small, narrow issues, 
in the hope that they will create the kind of change needed to 
fundamentally improve our future national security. Interconnected 
challenges require comprehensive solutions.
    These are interconnected challenges that require comprehensive 
solutions, and it will take the industrialized nations of the world to 
band together to demonstrate leadership - and a willingness to change--
not only to solve our current economic problems, but to address the 
daunting issues related to global climate change.
    And here, let me add my firm belief that it is the responsibility 
of the United States to be first among leaders. If we don't make 
changes, then others won't. We need to look for solutions to one 
problem that can be helpful in solving other problems. That's one of 
the things we uncovered in our work - that there are steps that can 
help us economically, militarily, diplomatically. And those steps fit 
with the direction the world is heading in it pursuit of climate 
solutions.
    As retired Marine Corps General Anthony Zinni, former commander of 
U.S. Central Command, and Military Advisory Board Member has said ``We 
will pay now to reduce greenhouse gas emissions today.or we will pay 
the price later.''
    Building on a key finding in the 2007 report--that climate change, 
national security and energy dependence are inextricably intertwined--
the CNA Military Advisory Board devoted over one year to examining our 
national energy posture, and, this past May, released its second report 
entitled: Powering America's Defense: Energy and the Risks to National 
Security.
    While most of the findings of our second report are beyond the 
scope of this hearing, the Military Advisory Board's primary conclusion 
was that America's energy posture constitutes a serious and urgent 
threat to national security--militarily, diplomatically and 
economically.
    Our second report also concludes that we cannot pursue energy 
independence by taking steps that would contradict our emerging climate 
policy. Energy security and a sound response to climate change cannot 
be achieved by increased use of fossil fuels. Our nation requires 
diversification of energy sources and a serious commitment to renewable 
energy. Not simply for environmental reasons--but for national security 
reasons.
    Some may be surprised to hear former generals and admirals talk 
about climate change and clean energy, but they shouldn't be. In the 
military, you learn that force protection isn't just about protecting 
weak spots; it's about reducing vulnerabilities well before you get 
into harm's way. That's what this work is about.
    Unless we take dramatic steps to prevent, mitigate, and adapt, 
climate change will lead to an increase in conflicts, and in conflict 
intensity, all across the globe. It's in this context--a world shaped 
by climate change and competition for fossil fuels--that we must make 
new energy choices.
    But achieving the end state that America needs requires a national 
approach and strong leadership at the highest levels of our government.
    I conclude by quoting from the foreword to our May, 2009 CNA 
Military Advisory Board report:


          The challenges inherent in this suite of issues may be 
        daunting, particularly at a time of economic crisis. Still, our 
        experience informs us there is good reason for viewing this 
        moment in history as an opportunity. We can say, with 
        certainty, that we need not exchange benefits in one dimension 
        for harm in another; in fact, we have found that the best 
        approaches to energy, climate change, and national security may 
        be one in the same.


    If we act with boldness and vision now, future generations of 
Americans will look back on this as a time when we came together as a 
Nation and transformed a daunting challenge into an opportunity for a 
better quality of life and a more secure future for our world.
    Thank you again for the opportunity to address the committee and 
contribute to this important national discussion.


    Senator Menendez. Thank you and thank you all very much.
    We are going to start 8-minute rounds since there are three 
of us here. And if there is more time needed, we will be happy 
to go through a second round. The chair will start with 
himself.
    Thank you all for your testimony.
    Mr. O'Driscoll, I listened to your testimony and it sounds 
to me that some of what you suggest may very well meet Dr. 
Green's admonition that if we give someone a fish, they will 
eat for a day. If we teach them how to fish, they will be able 
to eat for a lifetime. It sounds like some of the adaptation 
projects that your organization is involved with and are 
suggesting goes to the very heart of that. You are creating the 
opportunity for people to be self-sufficient in the long run. 
Would that be a fair statement?
    Mr. O'Driscoll. I think that is exactly the right approach 
to take to this. There are certain dimensions of adaptation 
that involve creation of infrastructure to protect, you know, 
sea walls or elevating buildings and so forth, which are 
obviously one-time infrastructure investments. But most of the 
approach to adaptation I would say, particularly in the field 
of agriculture, which is where we are focusing, is absolutely 
on investing in sustainable futures and looking for technical 
training and investments, access to seeds and credits and so 
forth that will enable people to become self-sufficient as 
quickly as possible.
    Senator Menendez. You know, I want to get a better sense 
for the record of what the terms ``adaptation'' and ``climate 
resiliency'' mean, and we have just begun to broach this with 
some of the projects most likely to be funded by programs such 
as the ones outlined by the Kerry-Boxer bill. I understand the 
view that it needs to be more robust, but not the nature of 
what that would ultimately fund. Are we talking about sea walls 
or drought-resistant crops or irrigation systems or water 
treatment systems? What do you envision being the universe of 
the projects? And I will say that to you and anyone else who 
wants to engage.
    Mr. O'Driscoll. Sure. I think you have covered a range of 
the options that are there. Certainly from my testimony, we 
would emphasize there are twofold dangers of climate change on 
the one hand, the risk to communities based on extreme weather 
events, which speaks to a number of adaptation projects that 
will protect them in various ways whether it is through the 
construction of this kind of infrastructure or whether it, in 
some cases, might involve relocation and compensation for that. 
So that is certainly one dimension.
    That said, however, I think we are also at a critical 
moment, as David mentioned, looking at World Food Day and 
looking at the reality that a billion people are living in 
hunger, there is a huge convergence between the climate 
emergency on the one hand and the need to refocus on 
agricultural development on the other. So I think what we 
should be thinking about in terms of climate adaptation funding 
is how do we support the capacity of communities to meet their 
food needs in the face of these changing climate circumstances. 
And I think that goes beyond climate adaptation to look at the 
importance of reinvesting in agriculture more generally, making 
sure that farmers have the means, not only the seeds and the 
fertilizers and so forth, but also the access to credit, the 
access to markets, and so forth that will enable them to 
thrive.
    I think we want to insist there that it is also important 
to focus on sustainable techniques. I think some of our 
concerns about some of the ideas on the table for agricultural 
adaptation and new seed varieties might be beyond the means of 
the 60 percent of the world's billion people who are small 
farmers. So I think it is really important that adaptation 
projects focus on making sure that technologies are affordable 
and accessible to the poorest people.
    Senator Menendez. Mr. Waskow?
    Mr. Waskow. Thank you. First, just as a general comment on 
the notion of adaptation, I think sometimes it is seen as sort 
of a matter of running in between the raindrops, if you will, 
if you think of climate change as a gathering storm. And we 
prefer to think of it as really the importance of building a 
robust umbrella and being proactive so that we are not simply 
responding to climate impacts but, given an uncertain and 
unstable climate, really putting in place the kinds of tools 
and the kinds of preparedness that need to be there in a 
proactive way.
    Secondly--and I think this echoes much of what Peter was 
saying--it is really critical that communities be deeply 
engaged in the process of developing and implementing climate 
adaptation strategies and activities. And that is so because we 
know from the history of development that when you do not have 
that community-level engagement, you do not have the kind of 
success on the ground that is necessary.
    And so to take some concrete examples and drawing on some 
of what you were asking about, sea walls are often not the 
right approach in a context where sea level rise or storms are 
the issue. Instead, putting in place mangroves, for example, 
planting mangroves, which can act as a sea buffer, a natural 
sea buffer, in many cases is the approach that makes more 
sense, both from an environmental standpoint and also often 
from the point of local communities. And so we really need to 
ensure that we are undertaking those kinds of community-based 
adaptation strategies when we go about this.
    Senator Menendez. Dr. Green, I see you want to get in here.
    Dr. Green. Yes. They were very interesting questions. What 
do we mean by adaptation? What do we mean by resilience?
    To me those really are two separate activities. Adaptation 
are steps we can use to move away from the areas of risk, sort 
of almost a pre-migration strategy that happens very slowly, 
incrementally because you fix the institutions so that people 
understand the level of risk they face where you create those 
institutions where they do not exist.
    Resilience being the ability to bounce back after damages, 
and that again consists of creating institutions that are 
insurance-based and market-based so that you have revenue 
streams and the ability to be resilient. If you have one-time 
infusions to build infrastructure and then you do not have any 
revenue stream for that infrastructure, it quickly becomes non-
resilient to change. So those two things, I would say, lead to 
adaptation and resilience.
    Mr. O'Driscoll. Mr. Chair, can I follow with one brief 
comment?
    Senator Menendez. Briefly. I want to get to one or two 
other questions.
    Mr. O'Driscoll. Go ahead.
    Senator Menendez. No, go ahead.
    Mr. O'Driscoll. Just to say that, as David said, community 
involvement is crucial. An ounce of prevention is worth a pound 
of cure. And we have found that investing in participatory 
vulnerability analyses in communities so that they are thinking 
in advance about what the threats are and what ways they can 
mitigate those threats is a very important investment in 
reducing costs down the line. Thank you.
    Senator Menendez. Thank you.
    General Wald, you mentioned in your testimony that 
unchecked climate change can result in an increased number of 
U.S. military humanitarian missions. And you have been talking 
about certain different departments of our defense looking at 
what their procurement needs will be towards the future. Of 
course, procurement needs are normally about equipment. 
Equipment is also followed by personnel, and that drives the 
numbers as well, as well as our personal commitments, as well 
as our deployments and being spread thin in a world in which we 
provide global leadership, but there are real challenges to 
national security in a variety of ways.
    So if we agree that the Defense Department is already 
looking at what it will take to meet some of these challenges 
in the future, which is going to drive money as well, to go to 
Senator Corker's concern, which is a very legitimate one, is it 
not possible to view that a robust climate adaptation could 
save us money in the long run if we are proactive in that 
respect?
    General Wald. Yes, I think so. I mean, I think there needs 
to be a lot more study done, which is being done right now, to 
get to the real bottom of what the implications will be.
    But a couple examples. One Peter just mentioned is when we 
were in European Command, much of our activity was in Africa. 
Africa is very volatile, unstable in many places and has a lot 
of problems, as you know. And we did a lot of preventative 
actions as well, training. Governance is a huge issue as well, 
obviously not a military mission, but it is part of something 
that would help us if we could get better governance in a lot 
of areas. But one of the things we found in a study with the 
General Accounting Office was that for every $1 of prevention, 
we saved $10 in response, which is kind of an interesting 
number.
    I told that to some EU parliamentarians trying to get them 
to be more participatory, and one of them said to me, that is a 
great point except I cannot get any credit for doing anything, 
so we do not want to do that. And that is part of the problem 
because when you prevent something from happening, you cannot 
chalk it to a success a lot of times. So it is difficult to put 
money to something that you cannot get a tangible return on, 
but I think that is one thing.
    I was, I guess, fortunate enough to run the Afghan air war 
for the first 4 months, and without Diego Garcia, which is an 
island in the Pacific, we never would have been able to do that 
the first few months of the attack on the Taliban. It is 
predicted a 3- to 5-foot rise in sea water. That island goes 
away, for example.
    I was in Europe last week with the NATO Commander in an 
advisory group, and one of the things he is looking at today is 
what they call the high north, the North Sea. And the north 
passage is now going to be opened. It was predicted at 2040, 
and now they say it is going to be in the next 5 to 10 years. 
And that becomes a military issue because resources and et 
cetera. So the Navy is looking at--they only have two 
icebreakers, for example. They do not have the ships that even 
go up there. Those are very expensive, by the way.
    And so the question is, well, how do you kind of start 
posturing yourself equipment-wise, as you point out, which is a 
long-term issue? And then number two is, how do you try to get 
ahead of it a little bit? And then number three, the Navy 
obviously and the Marines--their big issue is littoral, and 
that is where most of the population is going to live, but also 
that is where their seaports and their bases are. Norfolk in 
Virginia, a large naval base there, would be affected 
significantly with a 3- to 5-foot rise in sea water. You just 
do not replace bases like that. You are talking about billions 
of dollars.
    So I think your point is well taken. Number two is I think 
that is what we recommended here. The military needs to start 
looking seriously at what the impact here fiscally is going to 
be as well.
    Senator Menendez. Thank you.
    Senator Corker?
    Senator Corker. Thank you, Mr. Chairman, and I thank each 
of you for your testimony.
    Rev. Ball, I certainly appreciate the scripture that you 
referred to on the front end. This is certainly a place where 
that can be utilized heavily.
    I also was interested in your audacious comments speaking 
on behalf of the entire religious community, and upon hearing 
that, I have got three or four other issues I want to talk to 
you about after this.
    And, General, I appreciate also your tremendous service to 
our country.
    I am going to focus most of my questions to the three 
gentlemen in the middle. I thank all of you, though, for your 
testimony.
    One of the things we have done since we have been here--
first, we have observed that every time a Senator goes to a 
country, we come back and authorize a new development program. 
I mean, we see a need. We authorize it, and we end up having 
lots of aid programs that are not fully synchronized, by the 
way, all of which in most cases have merit. And so we have 
asked the administration to streamline those, to put those in 
priority. We are actually meeting with one of the 
administration officials this afternoon. They have been working 
with us to do that.
    But as it relates to adaptation, are there some existing 
development programs, aid programs, that we now have that we 
could orient in a different way to be far more effective as it 
relates to adaptation itself?
    Mr. Waskow. I am happy to take that.
    I think this is a multi-part puzzle. Climate change 
adaptation is something that is essentially a new and 
additional task that has to be undertaken in the context of a 
new situation. This is an additional obstacle and burden on 
developing countries. So because of that, our view is that 
additional resources beyond existing development assistance are 
going to be needed to tackle it.
    At the same time, this is something that has to be done 
very much in alignment with ongoing development strategies. It 
cannot be simply off in its own climate adaptation bubble of 
some kind. So I think your suggestion, if I understood it 
right, that we need to integrate climate change understandings 
and adaptation approaches into our broader development work is 
absolutely correct. That is something that AID can and has 
begun to do and I think, if resourced properly, would be able 
to do much more of.
    Let me say this does go to the resources again. Even when 
we are integrating adaptation into ongoing development 
approaches, that does take quite a bit of resources to be able 
to have the intellectual capacity within development agencies 
like AID and actually play it out in the field.
    So I think you are absolutely right that we should be doing 
that integration. At the same time, we need to be ensuring that 
it is not just a matter of saying, oh, we can redirect current 
strategies, current resources, but in fact, augmenting the 
resources sufficiently that we can tackle this new challenge.
    Dr. Green. Thank you, Senator Corker.
    I think there are areas where we could redirect before we 
add additional funding. One of those areas is research and 
development on things like genetically engineered crops which 
can adapt to varying climatic conditions, saline conditions, 
and the like, drought conditions, and also promotion of 
policies that lead to those deployment of genetically modified 
crops in the field. Right now there are many international 
obstacles to the use of genetically modified organisms and 
crops that I think we could divert some more attention to 
repairing, to fixing.
    Also, research and development on geo-engineering which may 
become necessary if there are high-end outcomes from climate 
change.
    And also, I think we could do more to increase the access 
to energy that is going to be vital for developing countries to 
be able to respond to climate change, to adapt and be 
resilient. Having ample supplies of affordable energy is very 
important for reacting to change and an awful lot of the world 
has virtually no access to energy or what access they have is 
very harmful to their health because it is highly polluting 
forms of energy.
    So in those areas where we have existing programs, we could 
augment them or redirect funds into those areas to help build 
the knowledge base and the infrastructure base the developing 
world will need in order to be resilient in the face of change.
    Mr. O'Driscoll. Thank you, Senator Corker. You are 
certainly asking the right question.
    I think we would agree with David. I think there are at 
least two sets of issues here.
    First of all, the particular threats and challenges that 
are created by climate change are augmenting a series of 
international development challenges that were there on the 
table before. Again, these things have been brewing for a 
while. We are just becoming more familiar with them and more 
capable to identify them as climate change challenges. So we 
would also strongly support the notion that climate change and 
climate change adaptation needs to be understood as the 
particular frame of our international development policy.
    That said, one of the strongest arguments for climate 
adaptation funding is the risk to existing development 
infrastructure and investment that has been made over the 
course of decades, gains that have been made that could be lost 
or wiped away by the threat of climate change. And so the 
notion of how you climate-proof existing international 
development programs on the one hand and how you anticipate the 
impact of climate on future programs is crucial.
    We were meeting at the State Department yesterday with a 
number of staff about the President's food security initiative 
and made strongly the point that, as welcome as that emphasis 
is on food at a time that a billion people are hungry, we want 
to make sure that the strategies and the initiative are 
factoring in the climate impact on agriculture as well.
    Senator Corker. I know that sort of the topic du jour to 
focus on is climate change and understandably so. And yet, when 
I look at issues like we saw in Darfur in Sudan--and other 
places we have seen the same--there is a complicating issue and 
that is we have climate change that is occurring, but we also 
have huge masses of migration and it exacerbates. I mean, in 
many cases with the desertification that is taking place, you 
might say, well, really it is not a function of climate change. 
It is a function of a mass of people coming into an area and 
just absolutely exacerbating the water issues.
    Should we also, as we look at this, be focusing more on the 
bureau of migration, I mean, looking at migration, looking at 
the bureau of population? Should those kinds of things not--let 
us face it. I mean, a big issue and maybe I am saying something 
that is not within the mainstream politically to say, if you 
will. But I mean, a big part of our issue is we have more 
people in the world today than natural resources can support in 
some cases. And are we focusing appropriately on those kinds of 
migration issues and population issues tied to this issue also?
    Mr. Waskow. Well, I think the answer is that it is not an 
either/or. If you take the case of Bangladesh and the Indian 
border, we need to be looking at what the implications are for 
migration and security in that context and very much having the 
institutions that address those issues really focusing on what 
is coming down the pike and what is already happening in 
instances like that.
    And at the same time, we need to be thinking about, in 
Bangladesh, for example, how can we work with communities on 
the ground so that they are better prepared for the impacts 
that they facing. Floating gardens was an example that Jim 
raised of an approach that has been successfully used in 
Bangladesh. We have been working there for years on early 
warning systems for severe weather events, and I think with the 
most recent cyclone that we saw, that that has had some very 
positive effect. There are going to be a number of other 
interventions, if you will, that are going to have to be made, 
I think, in Bangladesh to try to alleviate some of this 
migration pressure.
    So I think it is not an either/or. We both have to be 
looking at how to create that resilience to climate on the 
ground and also looking at some of these other issues that are 
intersecting with the climate impacts.
    Dr. Green. I think migration is an interesting question and 
I think we could focus more on that issue. In some ways, 
migration can exacerbate problems, as you pointed out.
    In other ways, migration is a desirable outcome. You want 
to get people out of climatically fragile areas. One of things 
climate science has taught us is that the climate is much more 
variable than people thought it was previously, not just from 
anthropogenic impacts, but simply because the climate is prone 
to sharp shifts in short periods of time. And we should be 
adapting our living patterns to reflect that new knowledge. So 
areas that already drought-prone are probably good areas to 
leave. Areas that are already flood-prone are probably good 
areas to move back from.
    So I think we need to look at migration not only as a 
negative or as a potential risk, but how can we actually 
promote good migration from dangerous areas as opposed to bad, 
sort of sudden responsive migration that is unplanned. And that 
I think is a key challenge, figuring out a way to establish a 
system that leads to that kind of migration you want and does 
not lead to the kind of migration you do not want because it 
takes too long.
    Mr. O'Driscoll. Well, Senator, as you know, concerns about 
the impact of a growing population have been talked about since 
Thomas Malthus, and we have heard all sorts of dire 
predictions.
    I think the way to distinguish the two issues that I do 
agree with you are related is to say that it is one thing to 
figure out what the impact of a growing population will be on a 
fixed resource base. It is another thing when you start looking 
at changes in that resource base that will complicate those 
calculations.
    So I think we need to do both. We need to think about what 
a growing population strain will put on existing 
infrastructure, but as these predictive models suggest, if 
those resource bases are going to dwindle, then we are just 
going to complicate the implications for population growth and 
for migration.
    Senator Menendez. Thank you very much.
    Senator Shaheen?
    Senator Shaheen. Thank you, Mr. Chairman, and thank you all 
for your testimony.
    There have been a variety of amounts thrown out that are 
going to be required for an adaptation fund. How do you arrive 
at that number, and how important is it that we agree on a 
number? Is that critical to accomplishing a global deal?
    Dr. Green. I think that, if I may, Senator, gets to the 
question of predictive models. The way these numbers tend to be 
arrived at is someone does an economic study of predicted 
damages and they come up with a fund that they believe will 
avert those predicted damages. The problem is climate models, 
even if they can have some accuracy in the very big global 
picture, they have virtually no accuracy below the continental 
scale. And so the ability to actually predict----
    Senator Shaheen. Wait, wait, wait, wait. What do you mean 
below the continental scale?
    Dr. Green. When climate models make predictions, they can 
predict for the whole globe, and they have a certain amount of 
confidence in their outcomes. When you scale the modeling down, 
uncertainties go up. So when you get to the continental level, 
you can make some predictions. Subcontinental--even the IPCCC 
admits there is virtually skill to the models in making 
predictions at the subcontinental level. That means you cannot 
actually predict what the changes are. You cannot put a 
monetary amount on it ahead of time.
    And that is why I have focused on the question of how do 
you build resilient systems independent of creating a big fund 
or independent of picking a dollar amount because I do not 
believe you fundamentally can know where these changes are 
going to occur or have any confidence that your number is a 
correct one or a meaningful one.
    Senator Shaheen. Mr. Waskow?
    Mr. Waskow. Well, two things. One is there is uncertainty 
and instability in the system. That, in fact, is the problem 
with climate change. But I think what we are seeing with the 
estimates, that they have been growing in time in terms of what 
the adaptation needs are. Oxfam 2 years ago did an analysis 
saying that we thought that adaptation needs in developing 
countries in total would be about $50 billion. Now the World 
Bank comes out just a couple weeks ago and says over the 2010 
to 2050 period, that it is an average of $75 billion to $100 
billion a year. The UN Development Program has said $86 billion 
a year, and so forth. So I think that we see that not only are 
their numbers large, but in fact estimates have been growing.
    The other thing I want say is that many of the adaptation 
strategies that we think should be undertaken are, in fact, 
win-win strategies in the sense that they both are important 
for climate adaptation purposes and also are economically sound 
and sensible and winners. So, for example, drip irrigation, 
according to the McKinsey study, is a strategy that not only 
provides adaptation benefits but also is a net economic gainer. 
You reduce water usage in important ways and you increase your 
crop yields. So I think that in many of these cases, the need 
to really put these resources forward is not only necessary but 
also optimal.
    Mr. O'Driscoll. Thank you, Senator. As David has suggested, 
there is a broad range of estimates. The low end of the United 
Nations Framework Convention on Climate Change is $25 billion a 
year, rising to $67 billion; $86 billion per year forecast by 
the United Nations Development Program, and so forth. The World 
Bank, now says $75 billion to $100 billion. So I agree with you 
that the range of those numbers is confusing and it makes it 
hard to focus on what the exact number should be.
    However, I think what might be helpful is to even take the 
low end of that range, the $25 billion estimate from the United 
Nations Framework Convention, and say what is the distance 
between that expense and, for example, the amount of money 
committed in the American Clean Energy and Security Act of $750 
million and how the United States and the global community can 
step up even to that low end of the adaptation bar. So we are 
very hopeful that the Senate's deliberations will look at that 
issue and see whether we can substantially increase the amount 
of funding.
    Senator Shaheen. Again, to go to the second part of my 
question, how important do you think that figure is in arriving 
at a global deal?
    Mr. Waskow. You know, many developing countries have come 
to the negotiations pointing to numbers like the World Bank's 
numbers or the UN Development Program's numbers. The numbers 
are very large. One might say that the U.S. responsibility 
should be based on our historic emissions of greenhouse gases, 
25 percent, or at the World Bank, we contributed close to 20 
percent of the funds based on that institution's metrics. So 
what we ought to put into the pot is probably somewhere in that 
percentage ball park. What the total pot would be, of course, 
is a matter of negotiation. Countries have said this is what is 
needed based on these estimates. We think that that has to be 
generated through the negotiating process.
    I think what is critical for the United States is to get 
over a certain hurdle, right, so that we can be taken seriously 
at the negotiating table. I personally, having watched the 
negotiations closely, having been at many of the negotiating 
sessions over the past almost 2 years, do not think we have 
crossed that hurdle yet. I do not think what is in the House-
passed legislation gets us there yet. So we do think it is 
critical that the Senate expand on what was done in the House.
    Senator Shaheen. Thank you.
    As we look at an adaptation fund and how it gets used, how 
do we ensure that we are undertaking the most appropriate 
measures to address adaptation in various places? Several of 
you have suggested some measures are more optimal than others. 
Do you have thoughts about how we allocate those decision-
making capacities and how that gets handled in an adaptation 
fund?
    Mr. O'Driscoll. Yes, that is a great question. Thank you 
very much. And we have a recently published paper [``Equitable 
Adaptation Finance: The Case for an Enhanced Funding Mechanism 
under the UN Framework Convention on Climate Change,'' 
available at http://www.actionaidusa.org] on that very issue 
that I would love to put in your hands after the hearing.
    Senator Shaheen. I thought you might.
    Mr. O'Driscoll. Yes.
    But I think one of the key principles--and this perhaps 
goes back to Senator Corker's earliest comments. How do we make 
sure that taxpayers' money really is being invested wisely and 
is accountable? And I think from our perspective one of the 
best ways to make sure that it is being spent efficiently and 
accurately is to ensure transparency and accountability in 
whatever those financing mechanisms would be. And moreover, I 
think we would say that those funds are much more likely to be 
invested wisely and efficiently if the communities are involved 
in the design, the implementation, the monitoring of the 
projects themselves.
    So those are key principles for us, which then led 
ActionAid to ask the question, what institutions are most 
likely to be able to provide that level of participation on the 
one hand, accountability and transparency on the other hand? 
That is where we have raised some questions about the direction 
the conversations are currently leading. Both the World Bank 
and the Global Environmental Facility, which are put out there 
as likely recipients of this adaptation fund, have had some 
serious questions. For example, an internal World Bank report 
suggested that as of 2006, about 75 percent of the World Bank's 
projects had not involved significant community participation.
    So one of the suggestions that we are making strongly in 
our paper is that the Senate and the administration look long 
and hard at the possibility of creating a new enhanced 
adaptation funding mechanism under the auspices of the United 
Nations Framework Convention on Climate Change, which is not 
only, we hope, an opportunity to expand the oversight, the 
transparency, the accountability of the process but also to 
this key question of how we get a global deal in December, a 
huge indicator of good will and of openness and leadership on 
the part of the United States around these issues.
    Senator Shaheen. Thank you. I actually am out of time, but 
I wonder, Mr. Chairman, if I could ask one final question----
    Senator Menendez. Go ahead.
    Senator Shaheen [continuing]. ----to Rev. Ball. And I want 
to try and be diplomatic about how I put this. But I think 
there were a number of people who were, frankly, a little 
surprised but very much appreciated the support from 
evangelical Christians for addressing climate change. And as we 
look at the challenges of getting the votes in the Senate, many 
of the people who have expressed reservations about any 
legislation come from parts of the country that have very 
strong evangelical Christian populations.
    So what do you think the prospects are for engaging the 
evangelical community on this issue to try and get legislation 
passed?
    Rev. Ball. Well, as I said at the beginning, there is this 
group of senior evangelical leaders called The Evangelical 
Climate Initiative. In my community, you need senior leaders 
like that to bless the facts. Right? In other words, in terms 
of the science and to be messengers that are trusted. 
Unfortunately, for some in my community, scientists are not 
necessarily the most trusted of messengers, or honestly, 
neither are necessarily Democratic politicians. Apologies.
    Senator Shaheen. I appreciate that. [Laughter.]
    Rev. Ball. So we have gotten our leaders to step up and----
    Senator Menendez. Only Democratic politicians? [Laughter.]
    Senator Menendez. You do not have to answer that.
    Rev. Ball. So we have gotten our leaders to step up and say 
this is a crucial issue. A key part of that is caring for the 
least of these, as we talk about it in our community.
    We are not going to be able to say to our folks that this 
is something to support unless the funding levels are 
sufficient, and the funding levels in the House bill are not 
sufficient. We want to fight hard and we will if those funding 
levels are sufficient.
    So we need to have a bill that our community can fight for. 
It is already a tough sled because some in our community are 
not with us, and so to engage those we know will be, we need to 
have something that we can fight for.
    Senator Shaheen. Thank you. Senator Corker took notes on 
that.
    Senator Menendez. Senator Cardin?
    Senator Cardin. Well, Mr. Chairman, first of all, thank you 
for having this hearing. I think this is an extremely important 
part of the challenge that we have before us.
    I participated this past weekend in a discussion with the 
OSCE in Greece on climate change. We had 56 states that were 
represented there, and we had a chance to debate how we can 
move forward in Copenhagen. Of course, the question that was 
asked the most from my participation is where is America. Where 
is the United States? Where is the leadership from this 
country?
    I pointed out the fact that the House has already acted on 
legislation. The Senate legislation has been introduced. We are 
having hearings at the end of this month, and I am optimistic 
that America is going to be a leader in Copenhagen.
    But you know, we look at it from the developed nation's 
point of view, and that is we look inward to how we are going 
to get a bill done by dealing with expanding jobs in America 
and building the infrastructure in this Nation that is 
necessary in order to achieve our targets and dealing with 
consumers to make sure that they are protected through this and 
how we are going to deal with transition with industries to 
meet the new challenges of energy.
    But in order to be successful, if we are going to have 
international targets that are going to bring down carbon 
emissions, then we have to deal with the issue that we are 
dealing with here, and that is financing. How are we going to 
deal with the developing world? They have already been 
confronted by the impact of global climate change. They already 
have seen what we call climate migrants who are fleeing their 
country and causing instability. And there are international 
responsibilities here that we need to deal with and how we 
finance it is critically important. So I think this hearing is 
critical if we are going to be successful in dealing with the 
climate change issues.
    But I just want to emphasize one point and ask for whoever 
on the panel would like to respond--and that is, how do we have 
accountability on these funds? I look today at mineral wealth 
nations that are poor, that the mineral wealth has been a curse 
because it fuels corruption and it does not help the people of 
that nation. As I look at how we are trying to finance these 
international efforts on global climate change, it could very 
well be a revenue flow to nations that do not have the maturity 
to deal with it and could be a funding source for corruption, 
therefore, not only failing to accomplish the goals that we are 
setting out, but also fuel additional international problems of 
corruption.
    So how do we avoid that? How do we put into this 
international effort to avoid those issues? Rev. Ball?
    Rev. Ball. Earlier Senator Corker said I was saying the 
whole religious community. That was a bit of shorthand. I was 
more careful in my written testimony.
    But my organization--I knew you were kidding--is the 
evangelical partner of the National Religious Partnership for 
the Environment. It includes the U.S. Catholic Conference, the 
National Council of Churches, and the Coalition on the 
Environment and Jewish Life. And together we have put out a 
statement talking about how we should do some of these things. 
One of the things that we have talked about is exactly these 
types of questions.
    I already criticized Waxman-Markey a little bit, so let me 
praise Waxman-Markey here. We think they got it pretty good. 
One of the things that we want is to see about 40 to 60 percent 
of the funds staying with USAID, and USAID being the ones to be 
able to figure out who will get the grants. Hopefully, some of 
those go to evangelical relief and development organizations, 
but folks who are on the ground who USAID already has 
relationships with and there is transparency and monitoring all 
those kinds of things for some of the reasons that you have 
raised.
    We think there needs to be balance of multilateral and 
bilateral funding. If we are able to have 40 to 60 percent, as 
it says in the Waxman-Markey bill, kind of stay at USAID to 
then be given to PVOs, secular or religious, to do work, 
especially work within communities--that was another thing that 
Peter highlighted that is really important. These relief and 
development organizations are working at the community local 
level. So I think for that kind of transparency and balance of 
funding, I think if you have that kind of formula, that that 
would be very helpful.
    Dr. Green. Thank you, Senator. You raise a very important 
question. I think it needs to be understood that many of the 
countries we are talking about that face the biggest climate 
risk also have the weakest institutions. They often lack 
property rights regimes. They often lack even the basic rule of 
law. And as you pointed out, we have seen in the past that U.S. 
aid programs can, indeed, find their way right into the hands 
of the very people that are victimizing others and causing more 
trouble.
    So I would argue that we really need to keep not 60 percent 
of this under the control of U.S. agencies. We should keep 
virtually all of our aid under the control of U.S. agencies. 
And then we should institute the kind of transparency 
initiatives that the President has talked about with regard to 
science, transparency in science. There also should be 
transparency in the way these projects are funded and the way 
they are monitored and the way their performance metrics are 
established to make sure that we are getting some value for 
what we are spending.
    And I just have one question. Senator Shaheen had asked a 
question I did not get the chance to point to. There has been 
discussion here about putting a number out before Copenhagen, 
and I guess maybe I would ask you a question. Why would you go 
into negotiations having already put out your number as to what 
you are willing to spend instead of actually negotiating it at 
the point where you are going to have the maximum leverage?
    Senator Cardin. Well, I think we have put out the number. 
The international community has put out the number. It is no 
greater climate change 2 degrees centigrade from pre-industrial 
levels. I think that is going to be, I hope, the standard that 
we set. Now, how it is divided among the nations is something 
that obviously can be negotiated.
    I just want to challenge you, though, on the point. And Mr. 
Waskow, I will certainly give you a chance on this. Okay, maybe 
we can do a better job with U.S. contributions here. But we are 
talking about international in Copenhagen, and we want to make 
sure there is a fair sharing of the burdens of the developing 
world in dealing with these problems.
    We have not been successful on mineral rights 
internationally. The EITI is a strong effort. Senator Lugar and 
I have introduced legislation to strengthen the U.S. 
involvement and to make it more multinational. But the track 
record has not been that good. So why do we expect that the 
international community will assist us in making sure the money 
actually is used in an open way?
    Let me give Mr. Waskow a chance.
    Mr. Waskow. Thank you, Senator.
    I think there are three things that need to be done for the 
purposes of accountability.
    One has to do with community-level engagement, and this is 
something that several of us have stressed here. It is 
critically important that communities be involved in the 
development and implementation of adaptation strategies and 
programs. Without that, the success on the ground is likely to 
be severely diminished, and I think that the level of 
accountability will also be diminished if you do not ensure 
that communities, in fact, are engaged and making sure that the 
programs and the funding, in fact, is meeting the needs on the 
ground.
    Secondly is monitoring and evaluation. I agree that we need 
to have clear metrics in place and we need to have an 
evaluation process that very clearly spells out how we are 
looking at what the success is of the funding.
    On those first two elements, community engagement and 
monitoring and evaluation, I think the House-passed 
legislation, in fact, does a very good job.
    There is a third element that I think we ought to seriously 
consider, and that is really building off the experience, the 
model of the Millennium Challenge Corporation. And that model, 
in essence, requires that the United States reach agreements 
with other countries' governments on the parameters and 
objectives for the ways in which development assistance will be 
spent and then has a very clear feedback system for monitoring 
and evaluation. We put in place multi-year grants with these 
governments and have these kind of very robust systems to look 
at both what needs to happen and whether it has happened. I 
think that incorporating that, not all of the funding that 
Congress would put forward, but I think incorporating that into 
the adaptation resources that Congress puts forward, in fact, 
would be an extremely important step for the Senate to take.
    Dr. Green. Senator, I agree with you. This is a huge 
challenge. I am not saying that the European or the rest of the 
world, developing or developed, are going to put up the same 
kind of resources we are talking about and run their programs 
in a highly rigorous way that we would approve of. And I think 
that is something that should be understood going into 
negotiations. It should be required that even the developing 
countries, China and India, contribute to these processes 
because the Chinese are already the largest emitters of 
greenhouse gases and they are going to, by far, be the biggest 
contributor in the big picture of things in the long-term 
scheme. So I think it is very important that we require these. 
But they also must require the same kind of institutional 
settings we have, which is performance metrics, transparency, 
real delivery of funds, and so forth. And there have to be 
agreements in place that if they do not, we do not.
    Mr. O'Driscoll. Senator, may I jump in on that?
    Senator Cardin. Surely. Go ahead. The chairman is being 
generous with my time.
    Mr. O'Driscoll. Just to say community engagement is 
critically important, but also making sure that the conditions 
that are attached to international funding include 
communication of amounts and mechanisms to civil society 
because I can tell you about sitting down in Malawi with a 
group of parliamentarians who said, ``the IMF has come to town. 
They have sat down with our finance ministry. They have 
negotiated a loan. The conditions on that loan are not apparent 
to us. We are being asked as a parliament to approve that loan 
without knowing the conditions.''
    Senator Cardin. Transparency is absolutely essential. I 
agree with you, and I think that is one area that we can insist 
upon not only with America's participation, but the 
international.
    Thank you, Mr. Chairman.
    Senator Menendez. Thank you.
    I have one or two other quick questions, and then we will 
see if anyone else does.
    Dr. Green, in your written testimony, you seem to be a lot 
more reticent than even in your oral testimony about any monies 
being spent in this regard, or at least you raise serious 
cautions about it. But I listened to your response to one of 
the questions where you said, ``I think one of the key 
questions is how do we build a more resilient system.'' I think 
you and I could both agree that in order to build a resilient 
system, there is going to be money necessary. So for those who 
might suggest that there should be no money as it relates to 
adaptation, that is a difficult proposition if we are going to 
try to build even resilient systems.
    Dr. Green. Well, I agree to a certain extent.
    I think there are two areas in which we can contribute. One 
is we could contribute money, or the other is we could 
contribute experience.
    In the case of the developing countries such as China and 
India who have advanced technologies, we should be encouraging 
them or showing them how to build resilient systems and 
encouraging them to move away from, for instance, state-run 
infrastructure and things of that sort. So I think we have 
leadership that we can exert that is non-monetary to try to 
teach what resilience is to countries that do not actually have 
the institutions at hand to implement it.
    If money is to be allocated, I think it should be 
reallocated from existing uses and also should be targeted with 
extreme care. As I said, I mean, I understand the need for 
some--there may be some need, but the establishment of how that 
is done is really a huge challenge----
    Senator Menendez. You mentioned China and India, and I 
probably would agree with you there. Those are countries that 
are resource-wealthy or well-off. But we could have the 
greatest experience to share on resilient systems with 
countries that have absolutely no wherewithal to implement such 
systems. So we are going to need some resources here. We might 
argue about what the level of that is, but we are going to need 
some resources. I think as a foundation question we should 
agree to that.
    General Wald, I just want to ask this. Having listened to 
your testimony, there are some in the Senate who believe that 
the CIA is wasting money by opening its Center on Climate 
Change and National Security. I wondering if you are familiar 
with what work is and what your views are on that.
    General Wald. I am. In our first report, we recommended a 
national intelligence estimate be done this issue, which was 
somewhat controversial I think. It got a lot of blow-back from 
some Senators and Congressmen.
    I know the person that runs the center. As a matter of 
fact, he was my instructor pilot in 1971 when I learned how to 
fly. So it is kind of ironic. But he is one of the most 
responsible individuals I have ever met, one of the most 
intelligent. He believes this is an issue. And they are not 
going out and doing human intelligence per se. They are doing 
an estimate of what they see, literally and figuratively, the 
environment we are going to have to contend with in the future. 
That is part of their job is estimating threats and estimating 
situations.
    So I think it is a good idea, and I think the criticism of 
it is misplaced.
    Senator Menendez. Let me ask Mr. Waskow. Because of glacier 
melt in the Himalayas leading to water scarcity and because sea 
level rise will lead to more coastal flooding, China and India 
are quite vulnerable to climate change. But the domestic bills 
here in Congress are quite clear that well-capitalized 
countries such as India and China are not targets of the 
adaptation fund. What about that view internationally?
    Mr. Waskow. There has been a focus internationally on what 
are often described as the most vulnerable developing 
countries. That is the language used in many of the UN 
documents, including the Bali Action Plan that underpins the 
current negotiations. Those are generally understood to include 
small island states, least developed countries, and also 
Africa, countries in Africa.
    Now, I think that makes sense as a basic rubric, but at the 
same time, I think it does leave out some countries. And so we 
need to think about how to address that. For example, no 
countries in the western hemisphere other than Haiti are 
classified as least developed countries. So that leaves out a 
number of countries, all of Central America, countries in South 
America that are deeply affected. So I do think we need to 
think more about how to create rubrics and parameters that 
really make sense.
    Senator Menendez. No one is seriously arguing that India 
and China, for example, should have access to such funding.
    Mr. Waskow. I do not think China sees itself as a--China 
knows that it needs to do adaptation because, as you said, they 
have a very serious water issue.
    Senator Menendez. The question is, should they have access?
    Mr. Waskow. I do not think they see themselves as needing 
access.
    I think India may be a slightly different case for a couple 
of reasons. One is their GDP per capita is less than half of 
China's. Their emissions are about a quarter of China's. So I 
think from their perspective, they clearly have serious issues 
that they are going to need to address and I think maybe see 
themselves as deserving of some of that assistance. I think we 
would tend to agree with that, but I think India is certainly a 
question mark that needs to be taken up.
    Dr. Green. With all respect to Mr. Waskow, I think your 
question is how does the international community feel about our 
not allowing access to these funds to China and India. From 
what I have read, that is not an accepted position 
internationally, nor is it accepted by China, which has put 
forward actual demands for percentages of GDP wealth transfer 
from the United States or from developed countries to 
developing countries including themselves. So I think while the 
position is pretty well understood in the United States that we 
do not think that China and India should be recipients of these 
funds, internationally I do not believe that is the case, and I 
think there would be an emphasis on moving some of those funds 
to China and India whether U.S. funds or international funds.
    Senator Menendez. That would be something for negotiation 
and clearly something that if we come in with a significant 
threshold, we will be in a better position to negotiate on.
    Let me ask Rev. Ball. The role of government can sometimes 
be very divisive in the faith community, and I am just 
wondering, as I hear your testimony and some of your answers 
here, is climate change adaptation something for which there is 
deep disagreement or a broader agreement? I am not asking for 
universal agreement. That is almost impossible.
    Rev. Ball. Yes. It is interesting. It is a very helpful 
question because you may recall during the campaign that 
Governor Palin was asked what was her position--what were her 
views on climate change, and she basically said while I think 
global warming is happening, I am not so sure how much humans 
are causing it. That is a view that is shared by some in our 
community.
    But if you believe that global warming is happening, 
regardless of the cause, and you start to understand the 
seriousness of the impacts that are going to occur, then--when 
we would explain that to someone, even those who think it is 
baloney in our community that it is being caused by humans, but 
nevertheless see that it is happening, I think they would say, 
yes, we have got to help these folks.
    Just like I contribute money to World Vision to help with 
other kinds of humanitarian issues, if global warming is going 
to make these things worse in terms of refugees and health 
issues and food security and water scarcity, the things that I 
give money to help people with, then yes, we should do that. So 
I actually think that adaptation is a place where there is 
going to be a lot of consensus within the religious community.
    Senator Menendez. Senator Corker?
    Senator Corker. Mr. Chairman, thank you. I think this has 
been a great hearing and I thank each of you for what you have 
had to say.
    I think Senator Cardin's comments were very, very good, and 
I think that line of questioning--as, of course, our chairman 
and others. But to sort of figure out a way to link up the 
heart that I think Rev. Ball is trying to embody here with the 
practicality of monies being spent in a way that makes sense, 
something that many of the folks in his community at this time 
of the year are talking to their congregants about and 
certainly as legislation occurs, if it occurs, my guess is that 
this whole issue of how you actually expend money in a way that 
makes sense and there is a desired end I think is very, very 
important.
    I would actually challenge the community that is the 
recipient of these monies to work more closely together to 
develop something that makes sense in that regard. Part of it 
being multilateral, as you refer to, part of it bilateral is 
going to make that very, very complex.
    Not to give a travelogue, but most recently I was in 
Afghanistan, and you talk to citizens there on the ground and 
they are getting like 20 cents on the dollar of our aid. I 
mean, it is criminal. Lots of people are benefitting all along 
the way.
    So I do think that the question Senator Cardin asked--and I 
think certainly if you look at the government--in most cases we 
are talking about countries that are very, very poor. They do 
not have a system there of checking corruption. So I think that 
is a very, very important thing to focus on.
    I want to ask a question, and this is obviously slightly 
loaded. But we are already involved in adaptation now. I mean, 
we do things. We deal with that. If legislation like this 
passes, there is no question in my mind we will be involved 
more. There may be various things that each of us feel in 
different ways are most important. Obviously, you all are here 
about adaptation.
    I was in the Amazon region recently, and I cannot imagine 
how anybody in the world would not think that the burning of 
those forests is not--regardless of how you feel about climate 
change, it is not a good thing. Okay? It is affecting the 
world. And so some people might say that monies ought to be 
expended there to keep that kind of thing from happening. I 
know the international community has disagreed with that.
    But let me ask you this question. And it is loaded. Energy 
security has been something that has been important to me. The 
general talks about our national security in some ways as it 
relates to climate change. My focus on this area has been to 
figure out a way that regardless of how you may feel about all 
these other things, how do we craft a policy that moves our 
country and the world ahead. How do you do that?
    How do you feel about a bill? You talked about not having 
enough money coming into adaptation. I mean, that is why you 
are here today. But these bills that are being put forth seem 
to move away from climate change and they move towards lots of 
people making lots of money. I mean, if you look at the U.S. 
cap group and how they as a group benefit from this, you look 
at buying off the hook and bullet guys that exist all around 
our country, you look at buying off the agriculture community, 
you look at buying off every interest group in the world which 
basically is taking money out of our economy.
    So here you are people of good will, I think. I think you, 
on a daily basis, try to do things that are good for other 
human beings. How do you feel about a piece of legislation that 
is the centerpiece that basically extracts money from the very 
people we represent, syphons it off to various groups around 
the world? I am not talking about adaptation and I am not 
talking about the Amazon. Okay? But all those other areas. Do 
you feel like the end justifies the means and if it takes us 
buying off every organization and every interest group in the 
country to get it passed, it makes sense? Or would you like to 
see this body act more responsibly?
    Dr. Green. Well, Senator, if I may. I think that is a 
crucial question.
    Senator Menendez. Only slightly loaded. [Laughter.]
    Dr. Green. Only slightly loaded. That is true. I did not 
detect any hint of loading in the question.
    This is one of the areas where I think it is important to 
think about technology development because one of the things 
that we can do that cuts around this question of corruption is 
we can develop the technologies that can be deployed in these 
countries to help them adapt to climate change. So, again, 
genetically engineered crops is a large area we should be 
working on developing new technologies. New energy technologies 
that can be deployed in these areas, new sanitation 
technologies that can be cheaply and easily deployed in 
developing countries. I think we have much more in terms of 
building things and technology advantage than we do in trying 
to get around corrupt systems and make sure that if we send 
money, it goes to the right hands. If we create technologies 
that can be deployed, it is going to reach the lower levels and 
not profit as much the people we do not want to profit.
    Mr. O'Driscoll. Senator, when you say that your question is 
loaded, I wonder if you are suggesting that you would like us 
to write the legislation for you so that we can make sure 
adaptation is----
    Senator Corker. My guess is adaptation would have a larger 
chunk. [Laughter.]
    Mr. O'Driscoll. It would have a significantly larger chunk. 
So we will be working on that bill and we will get to you 
shortly.
    You know better than we do the complications of getting 
legislation passed and the realities of politics in this 
country. So I think our position on any bill is that there is a 
certain amount of that that we certainly cannot avoid and that 
that is why we appreciate the efforts that you are making and 
the meetings that you are having with the different groups who 
have some interest in this issue.
    That said, I think from where we sit, there is absolutely 
no alternative to moving forward with a bill that addresses 
this issue, and we will be thrilled to talk to you as you work 
out the various interests and how they come together. But I do 
not think from our perspective we could possibly say that the 
best solution is no bill and not addressing this issue.
    Mr. Waskow. If I could amplify that a little from our 
perspective. We have long had the position that 100 percent of 
the resources in a climate bill should go to public benefit. 
That will likely not happen. So I think we all have tough calls 
to make.
    But let me say this. We focused at this hearing on 
adaptation and there is no question that is a critical task 
ahead. As I said, even if we eliminate emissions today, we will 
have climate change growing and increasing over the next few 
decades. So we have to take on this adaptation challenge. At 
the same time, if we do not tackle the emissions reduction 
challenge, the adaptation challenge 40, 50, 60 years from now 
will be so immense that it may not even be possible. We will 
not be able to have the tools to adapt out into that time 
frame. So action on climate change is urgent, and as I said, we 
have tough calls to make, but I do think that we need to do 
something now and not wait.
    General Wald. Can I just make a comment?
    First of all, I agree with everything that was said. But I 
would say that there needs to be----
    Senator Corker. Everything I said or he said?
    General Wald. Everything you said, Senator.
    Senator Corker. Thank you. [Laughter.]
    General Wald. But seriously, the big issue that needs to be 
addressed, I think, is--I mean, money is an issue. It always 
is. But is U.S. leadership. This is not going to be effective 
unless we really take a part in this. Our saying in European 
Command is we wanted to use OPM. That is ``other people's 
money.'' We need to have them focus the money in areas that are 
beneficial to us, and we are not going to be able to do that 
without serious leadership. And so unless we do something as a 
Nation, none of this is going to be fixed. And by the way, it 
is going to be hugely inefficient unless we are leading.
    Senator Corker. Reverend, do you want to close us out with 
a benediction here?
    Rev. Ball. Well, that would be interesting.
    I just was recalling that a professor at Harvard--Professor 
Stavins I think it is--did an analysis on the Waxman-Markey 
bill, and he came to the conclusion that 80 percent was going 
towards public benefit and 20 percent towards private. So if 
you go by the adage of don't let the perfect be the enemy of 
the good, then I think, well, we have got to make the sausage, 
and so let us at least have a good-tasting sausage.
    Senator Menendez. That is one great benediction. 
[Laughter.]
    Senator Corker. Thank you all very much.
    Senator Menendez. Thank you very much.
    This will conclude this hearing on addressing the impacts 
of climate change in the world's most vulnerable nations.
    Let me thank all of the witnesses on behalf of Senator 
Corker and myself and our other colleagues for participating. I 
think we lay a lot of work here to help the committee prepare 
as it moves forward on a climate change bill.
    The record is going to remain open for 1 week to allow 
Senators the chance to ask follow-up questions in writing. We 
ask, if you receive them, to please try respond as quickly as 
possible.
    With that, the hearing comes to a close.


    [Whereupon, at 11:50 a.m., the hearing was adjourned.]

                                    

      

</pre></body></html>
